APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Seventh Circuit (August 22, 2019) ........ 1a
Amended Judgment in a Criminal Case,
United States District Court for the Northern
District of Indiana (February 12, 2018) .......... 44a
Opinion and Order of the United States District
Court of Indiana, Hammond Division
Denying Motion to Dismiss (April 28, 2017) ... 55a
Opinion and Order of the United States District
Court of Indiana, Hammond Division
(June 22, 2015) ................................................. 62a
Order of the United States District Court of
Indiana, Hammond Division on Motions in
Limine (September 30, 2015) ........................... 70a
Constitutional and Statutory Provisions ............... 75a
Indictment
(May 17, 2013) .................................................. 94a
Trial Transcript–Relevant Excerpts
(October 15, 2015) .......................................... 122a
Trial Transcript–Relevant Excerpts
(October 9, 2015) ............................................ 127a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
(AUGUST 22, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
VAHAN KELERCHIAN,

Defendant-Appellant.

________________________
No. 18-1320

Appeal from the United States District Court for the
Northern District of Indiana, Hammond Division.
No. 2:13-CR-66–Joseph S. Van Bokkelen, Judge.
Before: HAMILTON, BARRETT,
and SCUDDER, Circuit Judges.
HAMILTON, Circuit Judge.
Federal law imposes tight restrictions on private
possession of machineguns and laser gunsights but
allows law enforcement agencies to purchase and use
both machineguns and laser sights. This appeal concerns criminal conspiracies among a firearms dealer
and law enforcement officers to fool manufacturers
into thinking they were selling to local police forces

App.2a
when the machineguns and laser sights were instead
going into private hands.
Defendant-appellant Vahan Kelerchian was a
licensed firearms dealer. His co-conspirators were
Joseph Kumstar, the Deputy Chief of the Lake County
Sheriff’s Department in Indiana, and Ronald Slusser,
a patrolman who was the armorer for the department’s
SWAT team. The trio defrauded firearms manufacturer
Heckler & Koch and the laser sight producer Insight
Technologies into selling them machineguns and laser
sights restricted by law for law enforcement and
military use. After many fraudulent transactions, the
three were indicted on several charges. Kumstar and
Slusser pleaded guilty. Kelerchian went to trial and
was convicted on four counts of conspiracy and four
counts of making false writings. On appeal, Kelerchian
raises numerous issues, but we affirm his convictions
on all counts. In Parts I and II, we provide the factual
and procedural background for Kelerchian’s arguments.
In Part III, we analyze his numerous challenges to
his convictions.
I.

Factual Background
A. Machineguns and Laser Sights

Since enactment of the National Firearms Act of
1934, codified in the Internal Revenue Code as 26
U.S.C. § 5801 et seq. (“the 1934 Act”), federal law has
forbidden the importation of machineguns, but with
several exceptions. Two are relevant here. First,
machineguns may be imported for use by state or
federal departments or agencies, and second, machineguns may be imported “solely for use as a sample by
a registered importer or registered dealer.” 26 U.S.C.
§ 5844; see also 27 C.F.R. § 479.112. The conspirators

App.3a
here submitted fake documents to Heckler & Koch to
take advantage of these two exceptions.
The Gun Control Act of 1968, as amended and codified as part of the criminal code in 18 U.S.C. § 921 et
seq. (“the 1968 Act”), imposed additional restrictions on
a much broader category of firearms, as well as new
recordkeeping laws. The 1968 Act, as amended, prohibits the transfer or possession of machineguns made
after 1986, except by a federal, state, or local agency.
18 U.S.C. § 922(o). Both the 1968 and 1934 Acts
require importers and dealers of firearms to keep
records related to their transactions. 18 U.S.C. § 923(g);
26 U.S.C. § 5843. Both Acts make it a crime to make
false statements with respect to these records. 18
U.S.C. § 924(a)(1)(A); 26 U.S.C. § 5861(l). The Bureau
of Alcohol, Tobacco, Firearms and Explosives (“ATF”)
administers the recordkeeping requirements and the
exceptions.
Laser sights, on the other hand, are regulated by
the Food and Drug Administration (“FDA”) as part of
its regulation of radiation-emitting devices. See 21
U.S.C. § 360ii. The powerful lasers on gunsights can
cause eye damage, so federal law ordinarily requires
them to be equipped with visible or audible warnings
before and during use, as well as protective covers and
key controls. 21 C.F.R. § 1040.10(f). They also must
have labels warning of the risk of eye damage. 21
C.F.R. § 1040.10(g)(2)(iii).
The FDA may, however, grant exemptions or variances from these requirements, such as for police
departments that might need to be able to use silent
laser sights. 21 U.S.C. § 360oo(b); 21 C.F.R. § 1010.4(a).
The FDA also requires accurate records for laser
sales. Laser manufacturers must collect and preserve

App.4a
information that will enable the tracing of lasers sold
to distributors or to dealers. 21 C.F.R. § 1002.30(b)(1);
see also 21 U.S.C. § 360nn(f). Dealers and distributors
must “obtain such information as is necessary to
identify and locate first purchasers” of lasers and
forward this information “immediately to the appropriate manufacturer.” 21 C.F.R. § 1002.40(a), (c).
B. The Conspiracies
Vahan Kelerchian was a licensed firearms dealer
who ran a business in Pennsylvania called Armament
Services International, Inc., known as ASI. He met
Lake County Sheriff patrolman Ronald Slusser at a
Kentucky machinegun show some time in the early
2000s. A few years later at the same show, Slusser
introduced Kelerchian to his supervisor, Joseph Kumstar, the Deputy Chief of the Lake County Sheriff’s
Department. According to Slusser, he and Kelerchian
stayed in touch and did business together for the
next several years.
At some point, Slusser told Kelerchian about an
illegal arms deal in 2008 that Kumstar had instructed
him to help with. Kumstar had acquired machineguns
by claiming that they were for the Sheriff’s Department,
but then instructed Slusser to remove certain parts
of these guns and to sell them over the internet for
Kumstar’s personal gain. Slusser testified that Kelerchian expressed interest in doing a similar deal with
Kumstar and Slusser. The three then plotted the
conspiracies that led to their convictions.
1. Machinegun Purchases
The first part of the conspirators’ plan was to
purchase machineguns from international gun import-

App.5a
er Heckler & Koch (“H&K”) under the pretense that
the weapons were for the Lake County Sheriff’s Department. Kelerchian, Slusser, and Kumstar orchestrated
three fraudulent machinegun purchases from H&K.
In the first transaction, in December 2008, Kelerchian, Kumstar, Slusser, and Slusser’s cousin, Ed
Kabella, ordered 50 machineguns for $83,026. Kumstar
prepared paperwork saying falsely that the Sheriff’s
Department was purchasing all 50 machineguns. Kelerchian sent this paperwork to H&K, including statements on Sheriff’s Department letterhead attesting
that the weapons were for the exclusive use of Lake
County law enforcement. H&K then filed ATF Form 6,
asserting that it was importing 50 machineguns for the
Lake County Sheriff’s Department. ATF approved the
transaction, and H&K sent the 50 machineguns to
the Sheriff’s Department.
Slusser then took the machineguns apart, separating the guns’ lower receivers, which are the regulated
portions of the weapons containing traceable serial
numbers. The unregulated upper barrels of the guns
were distributed among the conspirators according to
how much money each had contributed to the purchase.
The plan was to refurbish 15 of the regulated lower
receivers into new guns using cheaper parts, and then
to add these new weapons into the Sheriff’s Department’s armory. The 35 remaining lower receivers were
to be destroyed. No machineguns ever made it to the
Sheriff’s Department, though. The conspirators sold
the unregulated machinegun parts for a substantial
profit. Slusser sold his unregulated machinegun barrels
to a dealer named Adam Webber, who runs a website
selling hard-to-acquire H&K machinegun parts.

App.6a
Webber was involved in the next two machinegun
purchases. He told Kumstar and Kelerchian that he
was interested in buying additional machinegun parts.
In February 2009, using the same procedure as before,
Kumstar and Kelerchian bought nine H&K machineguns, again telling H&K falsely that the guns were for
the Sheriff’s Department. Once the machineguns were
delivered, Slusser again disassembled them and
sent the unregulated parts to Webber. In exchange, and
relevant to the money-laundering conspiracy charge,
Webber sent Slusser a cashier’s check for $18,900. At
Kum-star’s direction, Slusser deposited that check
into his own account and then sent cashier’s checks
to both Kumstar and Kelerchian. Nine months later,
Kelerchian mailed H&K a check for the machineguns.
In October 2009, Kelerchian and Kumstar bought
twelve more machineguns from H&K, again telling
H&K falsely that they were for the Sheriff’s Department. Slusser again disassembled the guns and sent
the unregulated parts to Webber. Webber mailed Slusser a $31,200 check, which he cashed. Slusser wrote
Kelerchian a check for $28,200, and Kelerchian wrote
H&K a check for the guns’ $16,800 purchase price.
2. Demonstration Letters
In the meantime, the conspirators also used the
exception for importing machineguns as demonstration
samples for a dealer. Kumstar testified that Kelerchian
asked him for help in buying machineguns for his
personal collection. Between October 2007 and March
2010, Kumstar sent five letters to the ATF stating
falsely that the Lake County Sheriff’s Department was
interested in demonstrations of the weapons Kelerchian
wanted for himself. The letters said that Kelerchian

App.7a
had “offered to conduct such demonstration[s]” and
“intend[ed] to demonstrate the operation, identification
and safe handling of the guns” to provide “department
personnel a better understanding of the capabilities,
limitations and differences of these guns.” Kumstar
testified that neither he nor the Sheriff’s Department
was actually interested in demonstrations of the requested machineguns and that he never had discussed
a plan for conducting an actual demonstration with
Kelerchian. Kumstar also testified that the weapons
were not guns the Department would use.
Through this arrangement, Kelerchian was able
to buy nine machineguns. He became the registered
owner of these weapons, and federal law allowed him
to sell them at his own discretion. No demonstrations
ever occurred.
Kelerchian’s testimony disputed Kumstar’s
account. He said that Kumstar had offered on his own
to write the first dealer sales sample letter for
Kelerchian and genuinely was interested in a demonstration. Kelerchian also testified that he offered to
conduct demonstrations for Kumstar and the Department many times between October 2008 and April
2011. He said that he offered a variety of settings
and dates but that Kumstar never took him up on his
offers. The most Kumstar did, according to Kelerchian,
was to come to Kelerchian’s place of business, take
photographs with guns, and pick up a gun, saying “We
did our demo.”
3. Laser Sight Purchases
Kelerchian, Kumstar, and Slusser also devised a
plan to buy restricted laser sights from a company
called Insight Technology. Slusser testified that he

App.8a
and Kelerchian wanted to buy laser sights for their
personal collections. The devices Kelerchian and Slusser
wanted did not comply with FDA safety rules requiring
a visible or audible warning. However, the FDA had
granted Insight Technology a variance allowing it to
sell its laser sights (technically, Class IIIb devices) to
federal, state, and local enforcement agencies on the
theory that safety features like a visible or audible
warning could compromise stealth operations in which
officers need to remain unheard and unseen.
Slusser and Kelerchian used the variance to buy
laser sights on the pretext that they were for the
Sheriff’s Department. Kelerchian and Slusser told
Kumstar which sights they wanted, and Kumstar then
put together a purchase order with paperwork saying
falsely that the Sheriff’s Department was buying the
lasers. In December 2008, Kelerchian sent Insight
Technology this purchase order for 25 sights for
$27,103.52. Using a nearly identical method, in March
2010, the three bought an additional 22 lasers sights
for $30,249.92. According to Slusser, he and Kelerchian
placed two more orders for Insight Technology laser
sights by using a friend of Slusser’s in the Lowell,
Indiana Police Department in December 2009 and
August 2010. The Lowell orders were for more than
28 Class IIIb laser products costing more than $32,000.
Kelerchian testified that he was unaware of the
FDA’s regulation of lasers and the variance. He told
the jury that an Insight Technology employee named
Linda Harms told him that the lasers could be sold to
individuals if they went through a law enforcement
department first. Harms testified at trial that she
never would have told a customer that laser sights
were available for individual purchase.

App.9a
II.

Procedural Background

A federal grand jury returned a nine-count indictment. Count I alleged that, in buying the machineguns,
Kelerchian, Kumstar, and Slusser violated 18 U.S.C.
§ 371 by conspiring to make false statements in
records required by the 1968 Act. See 18 U.S.C. § 924(a)
(1)(A). Count II alleged that, in buying the laser sights,
Kelerchian and the others violated 18 U.S.C. § 371
by conspiring to defraud the FDA by interfering with
its lawful government functions of limiting the sale of
various restricted laser sights to military and law
enforcement agencies and correctly identifying the
buyers of restricted laser sights.
Counts III through VII focused on the demonstration letters. Count III charged Kelerchian under
18 U.S.C. § 371 with conspiring with Kumstar and
others to violate 18 U.S.C. § 1001 by making false
statements to the ATF in the phony demonstration
letters. Counts IV through VII charged Kelerchian
with actual violations of § 1001 in four separate letters.
Count VIII alleged that Kelerchian committed
bribery by offering Kumstar a shotgun in exchange
for his help with several of the fraudulent transactions.
Count IX alleged that Kelerchian, Kumstar, and Slusser
conspired to launder money in violation of both 18
U.S.C. § 1956 and § 1957. The § 1956 allegation concerned the second machinegun purchase and the § 1957
allegation concerned the third. The premise of Count
IX is that the conspirators engaged in wire fraud in
obtaining the machineguns and then laundered the
proceeds of that fraud.
Slusser, Kumstar, and Kabella pleaded guilty and
agreed to testify for the prosecution. Kelerchian took

App.10a
his case to trial. After the government rested and
again after the close of all the evidence, Kelerchian
moved under Federal Rule of Criminal Procedure 29
for a judgment of acquittal on all counts. At both
stages, the district court denied the motion on Counts
I through VII and took the motion under advisement
on Counts VIII and IX.
The jury found Kelerchian guilty on all counts
except the bribery charge in Count VIII. Through a
special verdict form, regarding Count II, the jury
specifically found Kelerchian guilty of conspiring to
interfere with both of the two regulatory functions of
the FDA identified in the indictment. Through another
special verdict form on Count IX, the jury found
Kelerchian guilty of conspiring to launder money in
violation of both 18 U.S.C. § 1956 and § 1957. Kelerchian was sentenced to 100 months in prison, plus a
fine and term of supervised release.
III. Legal Analysis
Kelerchian challenges all of his convictions on a
variety of grounds. First, he argues that Counts I and
II failed to allege federal crimes. Second, he argues
the government failed to prove the demonstrationletter charges in Counts III through VII and the
money-laundering conspiracy in Count IX. Third, he
contends the district court erred in its jury instructions.
Finally, he claims the prosecution engaged in misconduct in its closing argument. We find no errors.

App.11a
A. Legal Sufficiency of Counts I and II
1. Count I—Conspiracy to Violate Gun
Control Act Recording Requirements
Kelerchian argues that Counts I and II of the
indictment fail to allege federal offenses. We start with
Count I, which charged Kelerchian under 18 U.S.C.
§ 371 with conspiring to violate 18 U.S.C. § 924(a)(1)(A), which makes it a crime to knowingly make “any
false statement or representation with respect to the
information required by this chapter to be kept in the
records of a person licensed under this chapter,”
including federally licensed firearms importers, manufacturers, and dealers, including H&K. See Abramski
v. United States, 573 U.S. 169, 174–75 (2014). “This
chapter” is chapter 44 of Title 18, and it provides in
relevant part that licensees may not sell “any firearm . . . to any person unless the licensee notes in his
records, required to be kept pursuant to section 923
of this chapter, the name, age, and place of residence
of such person . . . or the identity . . . of such . . .corporation or other business entity.” 18 U.S.C. § 922(b)(5).
“Person” in this case means the real buyer or intended
recipient of the firearm, not a nominal or straw
purchaser. Abramski, 573 U.S. at 179–82. Regulations
implementing the 1968 Act also require licensees
like H&K to “maintain permanent records of the
importation . . . of firearms, including ATF Forms 6
and 6A.” 27 C.F.R. § 478.129(d). Count I thus alleged a
conspiracy to violate § 924(a)(1) by leading H&K to
create false records for the machinegun purchases—
falsely identifying the Lake County Sheriff’s Department as the buyer. On this logic, Count I alleged a
federal offense.

App.12a
To avoid this conclusion, Kelerchian argues that
18 U.S.C. § 924(a)(1)(A) and the 1968 Act’s regulations
in 27 C.F.R. § 478 do not apply generally to machineguns. He argues that the 1934 Act regulates purchase,
possession, importation, registration, and recordkeeping for machineguns, and that the only provision
of the 1968 Act that applies to machineguns is 18
U.S.C. § 922(o), which criminalizes the transfer and
possession of machineguns, but which was not charged
in Count I.
Kelerchian bases his statutory argument on the
two Acts’ different definitions of the term “firearm.”
The 1934 Act provides: “The term ‘firearm’ means” a
number of categories of especially dangerous weapons,
including short-barreled shotguns and rifles, and
specifically including “a machinegun.” 26 U.S.C.
§ 5845(a). By contrast, the 1968 Act defines a “firearm”
in relevant part much more broadly as “any weapon
. . . which will or is designed to or may readily be
converted to expel a projectile by the action of an
explosive.” 18 U.S.C. § 921(a)(3). Comparing these definitions, Kelerchian argues that because the 1968 Act’s
definition does not expressly include machineguns,
unlike the 1934 Act’s definition, Congress meant to
distinguish between machineguns and firearms in
the 1968 Act, leaving machinegun regulation largely
to the 1934 Act.
Based on both the text and the structure of the
1968 Act, we reject this argument. First, a machinegun
clearly fits into the 1968 Act’s broad definition of a
“firearm” as a weapon that “will or is designed to or
may readily be converted to expel a projectile by the
action of an explosive.” 18 U.S.C. § 921(a)(3). Machine-

App.13a
guns are a subset of “firearms” as defined in the 1968
Act.1
Second, other provisions of the 1968 Act show that
machineguns are properly treated as a subset of firearms under that Act. For example, § 924(c)(1) punishes
the possession of a firearm during the commission of
a crime of violence or a drug trafficking offense, but
§ 924(c)(1)(B)(ii) enhances the punishment “if the
firearm possessed . . . is a machinegun.” Similarly,
§ 924(c)(1)(C)(ii) imposes a more severe penalty for a
second § 924(c) conviction “if the firearm involved is a
machinegun.” Section 925(d) provides the Attorney
General with authority over importation of firearms
into the United States and possession of “unserviceable
firearm[s], other than . . . machinegun[s].” 18 U.S.C.
§ 925(d) (emphasis added). The 1968 Act also grants
qualified law enforcement officers with the proper
identification the ability to carry concealed firearms,
but specifically excludes machineguns from the
definition of firearm for purposes of just that section.
18 U.S.C. § 926B(e). The clear implication is that all
other provisions of the Act without such a limit apply
to machineguns as a subset of firearms.
1 In the 1934 Act, the term “‘machinegun’ means any weapon
which shoots, is designed to shoot, or can be readily restored to
shoot, automatically more than one shot, without manual
reloading, by a single function of the trigger. The term shall
also include the frame or receiver of any such weapon, any part
designed and intended solely and exclusively, or combination of
parts designed and intended, for use in converting a weapon
into a machinegun, and any combination of parts from which a
machinegun can be assembled if such parts are in the
possession or under the control of a person.” 26 U.S.C. § 5845(b).
The 1968 Act borrows the same definition for the term where it is
used in the 1968 Act. 18 U.S.C. § 921(a)(23).

App.14a
Accordingly, a machinegun counts as a firearm
for purposes of 18 U.S.C. § 924, so Count I properly
charged Kelerchian with conspiracy to violate the
1968 Act by submitting documents falsely telling H&K
that the buyer of all the machineguns would be the
Lake County Sheriff’s Department.
2. Count II—Conspiracy to Defraud the
FDA
Section 371 of Title 18 of the United States Code
makes it a crime not only to conspire to commit “any
offense against the United States,” but also to conspire
“to defraud the United States, or any agency thereof
in any manner or for any purpose.” The Supreme
Court has “stated repeatedly that the fraud covered
by the statute reaches any conspiracy for the purpose
of impairing, obstructing or defeating the lawful
function of any department of Government.” Tanner
v. United States, 483 U.S. 107, 128 (1987) (internal
quotation marks omitted) (collecting cases). Count II
charged Kelerchian with violating § 371 by conspiring
to defraud the FDA in carrying out its regulatory
responsibilities. Kelerchian argues that Count II
charged him with violating only FDA policy as opposed
to any statute or regulation with the force of law. He
emphasizes the text of the indictment charging him
with conspiring to defraud the FDA by interfering with
and obstructing the lawful functions of the FDA to:
a.

Limit the sale of various restricted laser
aiming sight devices to the military and law
enforcement agencies only;

b.

Correctly identify first line purchasers of
various laser aiming sight devices which

App.15a
were restricted to military or law enforcement
agency purchasers only.
As Kelerchian sees the case, no law or regulation
restricts laser device sales to law enforcement, so he
was charged with conspiring to violate only the
variance the FDA granted Insight Technology to sell
otherwise-illegal laser sights to law enforcement.
Because this variance, Kelerchian continues, was not
adopted in accordance with the Administrative Procedure Act, it has no force of law and cannot be used
to bind third parties or to support criminal charges
against them.
The argument misreads the indictment. Count II
did not charge Kelerchian with conspiring to violate
the variance but with conspiring to defraud the FDA,
rendering his Administrative Procedure Act argument
irrelevant. Section 371 makes it a crime to defraud
an agency of the United States “in any manner or for
any purpose.” The indictment alleged that Kelerchian,
Kumstar, and Slusser conspired to defraud the FDA
by obstructing the agency’s ability to perform the two
listed regulatory functions. Federal law provides the
FDA with the authority to regulate the sale of laser
devices. See 21 U.S.C. § 360ii. In carrying out its regulatory function, the FDA promulgated safety and
performance standards for laser sights. 21 C.F.R.
§ 1040.10. Manufacturers are barred from selling
products that do not comply with the standards the
agency sets. 21 U.S.C. § 360oo(a). That prohibition is
in place unless a valid variance applies to a sale.
§ 360oo(b).
The variance is not a regulation, but as the indictment recognizes, granting these variances is an exercise
of the FDA’s regulatory function over laser products.

App.16a
By deceiving Insight Technology into selling them
non-compliant laser sights, Kelerchian and the other
conspirators defrauded the FDA into allowing them
to possess devices that federal law prohibits. They
also led Insight to create a false paper trail for these
devices that would make it impossible for the FDA to
keep track of the true owners of these dangerous
products, which the FDA is supposed to do. Such fraud
impairs the ability of the FDA to regulate laser devices
to prevent harm to the public.
In United States v. F.J. Vollmer & Co., 1 F.3d 1511
(7th Cir. 1993), we rejected an argument similar to
Kelerchian’s. At issue in F.J. Vollmer was a settlement
agreement reached between the ATF and Gun South,
Inc., a firearms importer. The settlement agreement
allowed Gun South to sell an otherwise-banned semiautomatic rifle only to law enforcement officers or
agencies. Id. at 1514. Kenneth Nevius, a captain on
active duty in the Illinois National Guard, took
advantage of this exception and bought two restricted
rifles using his National Guard stationery. He said
he was buying the weapons “in connection with his
official duties and not for the purpose of resale.” Id.
He lied. He actually bought the guns to sell them to
F.J. Vollmer & Company, a firearms dealer. Nevius
orchestrated several such deals. Nevius and F.J. Vollmer were indicted. The company was convicted of mail
fraud and conspiracy to defraud the United States
government.
On appeal, the company argued that it was
charged with conspiring to violate only the settlement
agreement between the ATF and Gun South, which was
being treated as if it were a “de facto substantive
agency rule.” Id. at 1516. We rejected the argument,

App.17a
explaining that “F.J. Vollmer and Nevius were not
convicted of violating a settlement agreement.” Id. at
1515. “The indictment . . . specifically stated the elements” of a § 371 conspiracy, making it evident to the
court that this was the federal crime the defendants
were charged with committing. Id. at 1515-16.
“Further,” we continued, “because the convictions are
not based on the violation of the settlement agreement, the defendants’ [APA] argument . . . is irrelevant.” Id. at 1516. We apply the same reasoning here.
Count II properly charged Kelerchian with a violation
of 18 U.S.C. § 371.
B. Sufficiency of Evidence
Kelerchian next argues that the government failed
to prove the charges involving the so-called demonstration letters that enabled Kelerchian to buy machineguns for his personal collection (Counts III through VII)
and failed to prove the money-laundering conspiracy
charge (Count IX). On its own initiative or upon a
defendant’s motion, a trial court “must enter a judgment of acquittal of any offense for which the evidence
is insufficient to sustain a conviction.” Fed. R. Crim.
P. 29 (a).
We review de novo the denial of a defendant’s
motion for acquittal, considering the evidence in the
light most favorable to the prosecution. United States
v. Mohamed, 759 F.3d 798, 803 (7th Cir. 2014). We
“ask whether any rational trier of fact could have
found the essential elements of a crime beyond a
reasonable doubt,” United States v. Foley, 740 F.3d
1079, 1083 (7th Cir. 2014) (internal quotation marks
omitted), and “overturn a verdict only when the record
contains no evidence, regardless of how it is weighed,

App.18a
from which the jury could find guilt beyond a reasonable
doubt.” United States v. Blassingame, 197 F.3d 271,
284 (7th Cir. 1999) (internal quotation marks omitted).
This is usually a high hurdle for a defendant to clear,
but “the height of the hurdle depends directly on the
strength of the government’s evidence.” United States
v. Garcia, 919 F.3d 489, 496–97 (7th Cir. 2019)
(reversing denial of Rule 29 motion), quoting United
States v. Jones, 713 F.3d 336, 339 (7th Cir. 2013)
(affirming grant of Rule 29 motion).
1. Demonstration Letters
Kelerchian argues that the evidence does not
support his convictions for conspiring to make false
statements and making false statements in the demonstration letters submitted to ATF. To recap, Count III
alleged that Kelerchian violated 18 U.S.C. § 371 by
conspiring with Kumstar and Slusser to make false
statements to the ATF by submitting letters falsely
claiming that the Sheriff’s Department wanted demonstrations of otherwise-prohibited weapons that Kelerchian wanted for his personal collection. Counts IV
through VII alleged that the phony demonstration
letters were false statements to the ATF in violation
of 18 U.S.C. § 1001.
Kelerchian bases his argument on narrow readings
of the text of the demonstration letters as compared
to the indictment. He reads the indictment narrowly
to charge him with conspiring to make and making
specific false statements—requests for demonstrations
of machineguns. Nowhere in the essentially identical
demonstration letters, Kelerchian contends, however,
is there specific language, false or otherwise, actually
requesting a demonstration. Because the indictment

App.19a
charged Kelerchian not with conspiring to make and
making any false statement to the ATF but with
conspiring to make and making specific false statements
to the ATF, the government was required to produce
evidence showing that the specific false statements
were in fact made and failed to do so. We disagree.
The letters said the Sheriff’s Department was
“interested in a demonstration” of several listed guns
and had found a dealer, Kelerchian, who had “offered
to conduct such a demonstration.” The letters explained
that the “demonstration[s] will give [the] department
personnel a better understanding of the capabilities,
limitations, and differences of these [requested] guns.”
From the content of these letters, a reasonable jury
could find that these were false requests for demonstrations. The letters could have had no other purpose.
In addition, Kelerchian’s own testimony characterized
the letters as a “request to demonstrate” machineguns.
Kumstar also testified that each of the letters was “a
demonstration request,” that Kelerchian had not offered
demonstrations, and that the Sheriff’s Department
was not really interested in any. In short, there was
sufficient evidence to support Kelerchian’s convictions
for conspiring to make and actually making false
statements in the demonstration letters that he and
his co-conspirators drafted.
2. Money-Laundering Conspiracy
Kelerchian’s challenge to his conviction for conspiring to commit money laundering poses the closest
question in this appeal. The money-laundering conspiracy charge stems from the conspirators’ second and
third fraudulent machinegun purchases. The indictment charged Kelerchian with conspiring to launder

App.20a
money in violation of 18 U.S.C. § 1956(h), which makes
it a crime to conspire to commit any of the moneylaundering offenses defined in § 1956 or § 1957.
The indictment specified that Kelerchian conspired
to violate this statute in two ways. First was a
conspiracy to engage in a financial transaction using
the known proceeds of an unlawful activity (wire
fraud to obtain the machineguns) to conceal the
ownership and control of the proceeds from the specified
unlawful activity in violation of § 1956(a)(1)(B)(i).
Second was a conspiracy to use the proceeds of the wire
fraud to engage in a monetary transaction exceeding
$10,000 in violation of § 1957. The jury found Kelerchian guilty of both alleged conspiracies. We focus on
the conspiracy to violate § 1957, which we find was
proven, so we need not address the theory under
§ 1956(a)(1)(B)(i). See United States v. Joshua, 648
F.3d 547, 553 (7th Cir. 2011).
A money-laundering violation under either § 1956
or § 1957 requires proof of two distinct acts: the
unlawful activity that generated “proceeds” and then
the monetary transaction conducted with the criminal
proceeds. United States v. Seward, 272 F.3d 831, 836
(7th Cir. 2001), quoting United States v. Mankarious,
151 F.3d 694, 705 (7th Cir. 1998). The underlying
unlawful activity here was wire fraud. “To establish
wire fraud under 18 U.S.C. § 1343, the government
must prove the defendant (1) participated in a scheme
to defraud, (2) intended to defraud, and (3) used
interstate wires in furtherance of the fraud.” United
States v. Buncich, 926 F.3d 361, 366 (7th Cir. 2019).
The wire fraud offense was completed during the second
and third machinegun transactions when Kelerchian
and the others sent materially false statements to

App.21a
H&K asserting that the machineguns were being
purchased by the Lake County Sheriff. See United
States v. Aslan, 644 F.3d 526, 545–46 (7th Cir. 2011)
(wire fraud statute “punishes the scheme, not its
success”) (collecting cases); accord, e.g., United States
v. Kennedy, 707 F.3d 558, 566–67 (5th Cir. 2013) (wire
fraud distinct from money laundering of proceeds);
United States v. Halstead, 634 F.3d 270, 280–81 (4th
Cir. 2011) (health care fraud distinct from money
laundering of proceeds). The machineguns were the
proceeds of that wire fraud. According to the government, the way in which Kelerchian and Kumstar sold
these weapons to dealer Adam Webber constituted
money laundering.
The government’s theories for the money-laundering conspiracy are that, after completing the fraud in
the second purchase of machineguns, Kelerchian and
Kumstar conspired to conceal the fact that machinegun
parts were intended for dealer Adam Webber in
violation of § 1956(a)(1)(B)(i) and conspired to engage
in one or more transactions in criminally derived
proceeds worth more than $10,000 in violation of
§ 1957. Kelerchian and Kumstar used Slusser as a
middleman in their dealings with Webber to obscure
the true ownership of the guns. In particular, Slusser
sold the parts to Webber for $18,900 and received a
check in his name as payment. He was instructed to
deposit that check in his own account and then to
issue cashier’s checks to Kelerchian and Kumstar for
$9,450 each. Kelerchian then waited nine months
before paying H&K for the weapons. The intention,
the government argued, was to make it appear as
though the Sheriff’s Department bought and retained
control over the weapons. Further, Kelerchian waited

App.22a
months to pay H&K to distance himself from the Webber sale, making it look as though he was unaware of
the connection between the money sent to H&K and
the check he received from Slusser. The wire fraud
theory thus holds together.
But the government’s explanation of its theory
raised a new issue in the law of wire fraud. The
government must show that the scheme to defraud was
aimed at some form of money or property. Cleveland
v. United States, 531 U.S. 12, 19 (2000).2 In his
opening appellate brief, Kelerchian argued that the
wire fraud the government alleged was not a transaction distinct from the sale of the fraudulently
obtained machinegun parts to Webber. The government
responded that the wire fraud was complete as soon
as the defendants sent the purchase packets with
fraudulent statements to H&K, so that the later sale
of the parts was a distinct offense. We agree with
that point, but Kelerchian argued in his reply brief
that the government’s solution to the distinct-transaction problem posed a different fatal problem for the
money-laundering conspiracy charge. Submitting the
fraudulent statements to H&K to obtain the machineguns, Kelerchian argued, did not amount to wire
fraud because Kelerchian and his co-conspirators did
not deprive anyone of a “property interest” as required
under Cleveland.
2 Although Cleveland and other Supreme Court cases establishing
this rule involve the mail fraud statute, 18 U.S.C. § 1341, as
opposed to the wire fraud statute, we have explained that “the
elements of wire fraud under 18 U.S.C. § 1343 directly parallel
those of the mail fraud statute” so that “cases construing one
are equally applicable to the other.” United States v. Leahy, 464
F.3d 773, 786 (7th Cir. 2006).

App.23a
This property interest issue takes us to the edges
of federal mail and wire fraud law and poses Kelerchian’s strongest challenge to any of his convictions.
In McNally v. United States, the Supreme Court
explained that the federal mail fraud statute is “limited
in scope to the protection of property rights.” 483
U.S. 350, 360 (1987), superseded by statute on other
grounds, 18 U.S.C. § 1346. To establish mail fraud,
the government thus must “prove as an element of
the offense . . . that the defendant deprived the victim
of a property right.” United States v. F.J. Vollmer &
Co., 1 F.3d 1511, 1520 (7th Cir. 1993), citing McNally,
483 U.S. at 359–61. Kelerchian argues that the government failed to identify a victim whom the defendants
intended to deprive of a recognized property interest.
He argues that neither the ATF’s regulatory interest
in the transfer of firearms nor H&K’s interest in the
legal disposition of its guns qualifies. The government’s
interest will not suffice, but H&K’s interests will
support the wire fraud theory.
As discussed above, F.J. Vollmer & Co. involved a
scam in which an Illinois National Guard captain,
Kenneth Nevius, defrauded a weapons manufacturer
into selling him restricted guns under the pretense
that he was purchasing the weapons “in connection
with” his official duties. 1 F.3d at 1514. Nevius then
resold the weapons to F.J. Vollmer & Company, a
business dealing in the sale of firearms. Id. at 151314. Nevius and F.J. Vollmer were convicted of mail
fraud in violation of § 1341. F.J. Vollmer argued that
the mail fraud charge was insufficient because it “did
not allege that the government had a property interest
in the guns as is required by McNally.” Id. at 1520.
As in this case, at F.J. Vollmer’s trial “the government

App.24a
did not allege in the indictment, present evidence at
trial, nor was the jury instructed on the deprivation
of a property right.” Id.
We agreed with F.J. Vollmer, concluding that the
government was not deprived of a qualifying property
interest. Vollmer, 1 F.3d at 1521. The government
argued that its “right to control the disposition of
. . . firearms is a property interest” of which Nevius
and F.J. Vollmer deprived it through mail fraud. We
rejected this argument, holding that “the government’s
regulatory interests are not protected by the mail
fraud statute.” Id. (emphasis added), citing, among
other cases, United States v. Bruchhausen, 977 F.2d
464 (9th Cir. 1992).
We conclude here, however, that the government
proved that Kelerchian and his co-conspirators committed wire fraud against H&K, which had a sufficient
property interest of which they schemed to deprive it.
Kelerchian finds support for his position, though, in
the Ninth Circuit’s Bruchhausen decision. We consider
first that case and then decisions of this court and
the Second Circuit that adopt a broader view of
property interests when parties are induced to enter
into illegal sales, especially of weapons.
In Bruchhausen, the defendant was charged with
a scheme to defraud American manufacturers by buying
sophisticated technology, promising falsely that the
purchased equipment would be used only in the
United States, and then smuggling the goods to
countries in the Soviet Bloc. “Representatives from
these companies testified that they would never have
sold to Bruchhausen had they known the truth.” 977
F.2d at 466. On appeal the Ninth Circuit held that
Bruchhausen had not defrauded the manufacturers

App.25a
of “property interests” within the meaning of the wire
fraud statute. The court reasoned: “The manufacturers
received the full sale price for their products,” and
“While they may have been deceived into entering
sales that they had the right to refuse, their actual
loss was in control over the destination of their products after sale.” Id. at 467. The Ninth Circuit wrote
that while “the manufacturer may have an interest
in assuring that its products are not ultimately
shipped in violation of law . . . that interest in the
disposition of goods it no longer owns is not easily
characterized as property.” Id. at 468. Accordingly,
the court held “that the interest of the manufacturers
in seeing that the products they sold were not shipped
to the Soviet Bloc in violation of federal law is not
‘property’ of the kind Congress intended to reach in
the wire fraud statute.” Id.
If that view were correct, then it would be difficult
to affirm Kelerchian’s money-laundering conspiracy
conviction. Bruchhausen is not the final word on the
issue, however. The government’s Rule 28(j) letter
cited cases from this circuit and the Second Circuit
that support its view that Kelerchian and the others
defrauded H&K of a property interest sufficient to
allow use of wire fraud as “unlawful activity” to
support Kelerchian’s money-laundering conspiracy
conviction, and that view is consistent with the way
the jury instructions and the government’s closing
argument framed Count IX for the jury at trial.
We start with United States v. Leahy, 464 F.3d 773
(7th Cir. 2006), in which defendant Duff was convicted
of defrauding the City of Chicago. A Chicago ordinance
required the city to establish a goal of awarding not
less than 25% of the annual dollar value of all city

App.26a
contracts to qualified minority-owned businesses and
5% of the annual dollar value to qualified womenowned businesses, and set aside certain contracts for
such businesses. Id. at 778. To take fraudulent advantage of the ordinance, Duff, a white man, obscured
the ownership and control of two of his businesses to
give the city the false impression that his mother and
a black man were running them. Id. at 779-81.
Through this fraud, Duff was able to win lucrative
contacts with the city. Duff and others were eventually
convicted of wire fraud, in addition to other offenses.
The defendants appealed, arguing that the indictment
could not support a conviction under the applicable
mail and wire fraud statutes because “the only loss
Chicago suffered was to its regulatory interests—an
intangible right unprotected by these statutes.” Id. at
786.
We rejected that argument. We noted that the
object of the wire fraud was in fact property—money
paid under contracts. Id. at 787-88. We distinguished
Cleveland, where the Supreme Court held that for
mail-fraud purposes, Louisiana did not have a property
interest in state permits or licenses it issued for
video poker machines. See 531 U.S. at 21–23. Unlike
the fraud to obtain the licenses in Cleveland, in
Leahy “the fraud was committed both against Chicago
as a regulator and also against the city as a property
holder.” 464 F.3d at 788. This “scheme precisely and
directly targeted Chicago’s coffers and its position as
a contracting party.” Id. We concluded that Chicago
suffered a property loss “in that it paid for a service
provided by [a minority-owned business] or [womenowned business] that it did not receive.” Id. We affirmed
the mail and wire fraud convictions.

App.27a

Leahy is not precisely on point—the fraud there

was aimed at the buyer, not the seller, of products
and services—but it is instructive. First, in both
cases, the object of the fraud was property—money in
Leahy and here machineguns. Second, in both cases
one party to a contract deceived the other to induce it
to enter into the contract. In Leahy the city was
deceived into contracting with businesses controlled
by Duff rather than by minorities or women, as the
ordinance called for. Here, H&K was induced to sell
machineguns to a buyer it thought was lawful (the
Sheriff’s Department) when the real buyers were the
defendants, who could not lawfully buy the machineguns. Kelerchian’s fraud deprived H&K of the ability
to ensure that its products were sold in compliance
with federal law. As Kelerchian points out, H&K was
paid the full price for the machineguns. In Leahy, too,
however, the city received the services it paid for, yet
not from the sorts of businesses it thought it was
paying for them. 464 F.3d at 788. We treated that
sort of loss as sufficient, noting that the object of the
fraud “was money, plain and simple, taken under
false pretenses from the city its role as a purchaser of
services.” Id.
The government also finds support from Second
Circuit cases. In United States v. Schwartz, the defendants purchased night-vision equipment from Litton
Industries. 924 F.2d 410 (2d Cir. 1991). The Arms
Export Control Act restricted the sale of this equipment
to certain countries (including Argentina, then fighting
the United Kingdom in the Falklands War), so Litton
sought assurances that the defendants would not export
purchased equipment to restricted countries. Id. at
414. The sales contracts required the buyers to

App.28a
assure that they would comply “with all laws and
regulations pertaining to the export of night vision
goggles.” Id. As the defendants placed additional orders,
Litton sought further assurances and documentation
that the equipment was not destined for restricted
countries. The defendants signed the contracts and
promised to abide by applicable laws but then exported
regulated night-vision goggles to Argentina, where they
were used against British forces. Id. The defendants
were convicted of wire fraud, among other crimes. Id.
at 420.
In challenging their wire fraud convictions for
the Argentine sales, the defendants argued that Litton
did not suffer any economic harm and thus could
identify no qualifying property interest. Id. The Second
Circuit upheld the convictions because the defendants’
“misrepresentations went to an essential element of
the bargain between the parties and were not simply
fraudulent inducements to gain access to Litton
equipment.” Id. at 421. The court explained that “the
fact that Litton was paid for its night vision goggles
does not mean that Litton received all it bargained
for. In fact, it did not.” Id. The “defendants’ conduct
deprived Litton of the right to define the terms for
the sale of its property . . . and cost it, as well, good
will because equipment Litton . . . sold was exported
illegally.” Id.
In later cases, the Second Circuit has clarified the
test it applied in Schwartz. The court has acknowledged that “[t]he ‘right to control one’s assets’ does not
render every transaction induced by deceit actionable
under the mail and wire fraud statutes.” United States
v. Binday, 804 F.3d 558, 570 (2d Cir. 2015), quoting
United States v. Wallach, 935 F.2d 445, 463 (2d Cir.

App.29a
1991). Its “cases have drawn a fine line between
schemes that do no more than cause their victims to
enter into transactions they would otherwise avoid—
which do not violate the mail or wire fraud statutes—
and schemes that depend for their completion on a
misrepresentation of an essential element of the
bargain—which do violate the mail and wire fraud
statutes.” Id., quoting United States v. Shellef, 507
F.3d 82, 108 (2d Cir. 2007). This is a fine distinction,
but Kelerchian and his co-conspirators fell on the
wrong side of it, as the defendants in Schwartz did
with their fraud to obtain arms for illegal export.
In Shellef, for example, the defendants persuaded
a company to sell them hundreds of thousands of
pounds of a highly regulated chemical by falsely
representing that they would not resell the solvent
within the United States. 507 F.3d at 89-90. The court
distinguished Schwartz by focusing on the different
misrepresentations made in the cases. In Shellef, the
misrepresentations induced the seller only “to enter
into a transaction it would otherwise have avoided,”
whereas in Schwartz, the defendants had misrepresented “an essential element of the bargain.” Id. at
109, quoting Schwartz, 924 F.2d at 421. In explaining
this distinction further, the Second Circuit later said
that it “reject[s] application of the mail and wire
fraud statute where the purported victim received the
full economic benefit of its bargain,” and upholds
“convictions . . . where the deceit affected or the victim’s
economic calculus or the benefits and burdens of the
agreement.” Binday, 804 F.3d at 570.
The Second Circuit opinions and our opinion in

Leahy show that schemes to defraud a party into

entering a contract it would not enter if it had been

App.30a
told the truth, but where the fraudsters deliver the
agreed money, goods, or services are close to the edge
of the reach of the wire and mail fraud statutes. We do
not attempt here, in this money-laundering conspiracy
case, to establish a comprehensive guide on the scope
of the mail and wire fraud statutes. We concentrate
on the case before us, focused on illegal imports of
highly regulated and dangerous machineguns. On
the strength of our decision in Leahy and the Second
Circuit’s in Schwartz, which is remarkably close to
our facts and persuasive, we conclude that the
government proved that the scheme to defraud H&K
involved a sufficient property interest to support
using wire fraud as the underlying unlawful activity
for a money-laundering conspiracy charge.
As in Leahy, the scheme to defraud induced one
party here to contract with others who were not legally
entitled to enter into the contract. And as in Schwartz,
this case involves much more than the seller’s preferences about the terms of the deals. As in Schwartz,
an arms manufacturer was defrauded into making a
sale to buyers who were legally prohibited from buying
the goods. We agree with the Second Circuit’s explanation in Schwartz that, in such a deal, the fact that
the seller was paid full price does not mean it
received all it bargained for and is not decisive. The
Bruchhausen view fails to take into account the
damage to goodwill from the illegal sale and, we add,
the legal and regulatory risk that the seller faces in
such deals. If Litton (in Schwartz) and H&K (here)
had known the true facts of the sales, those companies
would have faced criminal liability. Even the investigation of the criminal transactions posed costs and legal
risks for the sellers.

App.31a
In the language of the Second Circuit, the destination of the machineguns—a law enforcement agency—
was an “essential element of the bargain” between
H&K and the supposed buyer. Without the Sheriff’s
Department stationery, Kelerchian and the others
could not even have approached H&K about buying
these machineguns. The sale required submitting the
ATF forms and an application certifying that the
purchaser of the guns was a law enforcement agency.
Although H&K did not lose any money in the machinegun transaction itself, by illegally selling firearms it
opened itself up to risks it did not bargain for: risks of
liability, of increased government scrutiny, and negative
publicity, all of which in turn could jeopardize future
sales. These are serious repercussions central to
H&K’s calculus of the “benefits and burdens” of this
transaction.
Comparing the Ninth Circuit’s decision in Bruchhausen with the Second Circuit’s decisions in Schwartz

and its progeny, we think the Second Circuit has the
better reading of the mail and wire fraud statutes.
Although “property” in these statutes is not broad
enough to encompass intangible interests like government regulatory interests, “property” is not so narrow as to exclude any tangible good or service for
which fair market value is paid. In Bruchhausen, the
Ninth Circuit rejected the idea that a seller could
have a cognizable property interest “in assuring that
its products are not ultimately shipped in violation of
law” because that would mean the manufacturer’s
interest is “in the disposition of goods it no longer
owns.” 977 F.2d at 468. We respectfully disagree. The
seller’s interest is not only in shipping goods legally,
but also in not selling products in violation of federal

App.32a
law. That interest exists before the seller relinquishes
ownership. As the concurrence in Bruchhausen
explained: “The strictures an owner puts on his
willingness to sell an item are not mere ephemera.
When a prospective buyer lies in order to evade those
strictures, a fraud has been committed upon the
owner of the item just as surely as if the buyer had
issued a rubber check.” Id. at 469 (Fernandez, J.,
concurring).
H&K sold the machineguns to Kelerchian and his
coconspirators only because of their deceit. Because
this fraud deprived H&K of a cognizable property
interest in avoiding illegal sales of its products, the
government established a violation of § 1343. This is
as far as we need to go to affirm Kelerchian’s conviction
on conspiracy to launder money in violation of § 1957.
Kelerchian also argues that the government failed
to prove that he conspired “to conceal or disguise the
nature, the location, the source, the ownership, or the
control of the proceeds of” the wire fraud in the second
machinegun purchase. See 18 U.S.C. § 1956(a)(1)(B)(i).
Although such evidence is needed to sustain a § 1956
conviction, we need not decide whether the government
proved this allegation. As discussed above, the jury
expressly found Kelerchian guilty of conspiring to
violate both § 1956 and § 1957. That means that Kelerchian must show that the evidence was insufficient
under either theory to overturn his conviction on
Count IX. Because a rational jury could find Kelerchian
guilty of conspiracy to violate § 1957, we affirm his
conviction on Count IX.

App.33a
C. Jury Instructions
1. Standard of Review
Kelerchian raises several objections to the jury
instructions. “We review de novo whether jury
instructions accurately summarize the law, but give
the district court substantial discretion to formulate
the instructions provided that the instructions represent
a complete and correct statement of the law.” United
States v. Edwards, 869 F.3d 490, 496 (7th Cir. 2017),
quoting United States v. Daniel, 749 F.3d 608, 613
(7th Cir. 2014). We review jury instructions as a whole
and in context. United States v. al-Awadi, 873 F.3d
592, 598 (7th Cir. 2017).
2. Conspiracy Instructions
Kelerchian challenges the jury instructions on
three distinct conspiracy charges. Count I alleged
that he conspired to make false statements regarding
the records required to be kept by a licensed firearms
dealer. Making the false statements violated 18 U.S.C.
§ 924(a)(1)(A), which is the substantive crime. Similarly,
making false statements to the ATF in violation of 18
U.S.C. § 1001 was the substantive crime of Count III’s
conspiracy charge, and money laundering in violation
of § 1956 and § 1957 was the substantive offense in
Count IX’s conspiracy charge.
To establish a conspiracy to commit an offense
against the United States in violation of § 371, the
government must prove “(1) an agreement to commit
an offense against the United States; (2) an overt act
in furtherance of the conspiracy; and (3) knowledge
of the conspiratorial purpose.” United States v. Soy,
454 F.3d 766, 768 (7th Cir. 2006). The government

App.34a
must show only “that the conspirators agreed that the
underlying crime be committed. . . . In other words, each
conspirator must have specifically intended that some
conspirator commit each element of the substantive
offense.” Ocasio v. United States, 136 S. Ct. 1423,
1432 (2016). “[T]he fundamental characteristic of a
conspiracy is a joint commitment to an ‘endeavor
which, if completed, would satisfy all the elements of
[the underlying substantive] criminal offense.’” Id. at
1429, quoting Salinas v. United States, 522 U.S. 52,
65 (1997) (alteration in original).
Kelerchian asked the district court to instruct the
jury that the government had to prove every element
of the substantive offenses underlying the § 371
charges. The court declined to give that instruction
and instead, for each of the three relevant conspiracy
counts, gave the Seventh Circuit’s Pattern Jury Instruction, telling the jurors that that government had
to “prove each of the following elements beyond a
reasonable doubt:”(1) that the conspiracy charged in
the indictment existed; (2) that the defendant knowingly
joined the conspiracy with the intent to advance it;
and (3) that one of the conspirators committed an overt
act to advance the charged conspiracy. See 7th Cir.
Pattern Criminal Jury Instr. § 5.08(A) (2018). For
each conspiracy count, the court also gave the jurors an
Eighth Circuit Pattern Instruction at the Government’s
request: “To help you decide whether the defendant
conspired to commit” the relevant substantive offense,
the jury “should consider the elements of the [substantive offense].” The court then listed the elements
of each of the substantive offenses and instructed the
jurors that they “should consider these elements in

App.35a
determining whether the defendant conspired to commit” the underlying offense at issue.
Kelerchian argues that these instructions misled
the jurors into thinking that they were not obliged to
consider the elements of the substantive offenses to
convict Kelerchian on the conspiracy charges against
him. In particular, he asserts that the use of “should”
as opposed to “must” was problematic. He argues that
the word “should” suggested that the jury could disregard entirely the elements of the substantive crimes
in the conspiracy charges and convict on a finding that
a generic conspiracy existed, rather than a conspiracy
to commit a specific, defined crime. The problem was
exacerbated, Kelerchian contends, by instructions saying that the government must prove the elements of
conspiracy beyond a reasonable doubt.
These instructions were not erroneous. We have
said before that “should” and “must” are interchangeable in this context: “[B]oth words are imperative when
used to instruct a jury,” and “it is hardly plausible
that a jury would reach a different verdict based on the
use of ‘should’ or ‘must.’” United States v. Davis, 724
F.3d 949, 955 (7th Cir. 2013). That is how the district
court used the terms throughout its instructions here.
The jurors were instructed that, in deliberations, they
“should” or “should not” do a variety of things that
are mandatory or prohibited. For example, the jurors
were told that they “should not consider the possible
punishment for the defendant who is on trial,” “should
rely on your independent recollection of the evidence,”
“should not be unduly influenced by the notes of
other jurors,” and “should find the defendant not
guilty” if the government failed to prove all elements
of an alleged offense beyond a reasonable doubt. We

App.36a
see no meaningful difference between the framing of
these instructions and the instructions to which Kelerchian objects.
The instructions communicated correctly that to
convict on the conspiracy counts, the jury needed to
find that Kelerchian “agree[d] with [the] others to
commit the acts which constitute the substantive
offense[s]” defined by § 924(a)(1)(A), § 1001, and §§ 1956
and 1957. United States v. Craig, 573 F.2d 455, 486
(7th Cir. 1977). There was no error.
3. Demonstration Letter Instruction
Kelerchian also argues that the district court
erroneously instructed the jury regarding ATF’s
requirements for demonstration letters. His issue is
with Instruction 27, which said in relevant part:
Machine guns may also be imported as dealer
samples if a dealer can establish to the
Bureau of Alcohol, Tobacco, Firearms and
Explosives by specific information:


that there is a governmental customer requiring
a demonstration of the weapons; and



the weapons are available to fill subsequent
orders.

In addition, the governmental entity must provide a letter expressing a need for a particular
model or interest in seeing a demonstration
of a particular weapon.
If a dealer requests more than one machine
gun of a particular model, he must also establish his need for the quantity of samples
sought to be imported.

App.37a
Kelerchian contends that this instruction selectively pulled a phrase from 27 C.F.R. § 479.112(c), which
governs the registration of imported firearms, including
those acquired pursuant to demonstration letters, to
create the erroneous impression that “dealer sales
samples required a demonstration of the weapons” to
take place. The government responds that Kelerchian
is focusing on the wrong regulation. Instruction 27
addressed 27 C.F.R § 479.105, which applies to the
transfer, rather than the importation, of machineguns,
and subsection (d) specifically deals with demonstration
letters. In short, § 479.112(c) applies to importation
of firearms for demonstrations and § 479.105(d) applies
to domestic transfers of machineguns for the same
purpose. Kelerchian was alleged to have conducted
dealer sample purchases involving the importation of
machine guns only in Count IV. The remaining counts
involved domestic transfers.
Regardless of which regulation Instruction 27 is
based on, Kelerchian’s challenge fails because the
instruction did not say that the dealer must actually
perform a demonstration. It said that a dealer must
show “that there is a governmental customer requiring
a demonstration.” Another instruction told the jury:
“The law does not require a dealer who receives a
machine gun for use as a sale sample to do a demonstration of the machine gun.” The instructions as a
whole correctly stated the law.
D. Closing Argument Issues
Kelerchian also argues that the government committed prosecutorial misconduct and improperly amended the indictment. Neither argument is persuasive.

App.38a
1. Prosecutorial Misconduct
We review claims of prosecutorial misconduct in
two steps. “First, we determine whether the prosecutor’s
comments were improper standing alone. Second, we
ask whether the remarks in the context of the whole
record denied the defendants the right to a fair trial.”
United States v. Durham, 766 F.3d 672, 684 (7th Cir.
2014), citing United States v. Bell, 624 F.3d 803, 811
(7th Cir. 2010). To evaluate the relevant statements
in context to determine whether they deprived a defendant of a fair trial, we consider “1) the nature and
seriousness of the misconduct; 2) the extent to which
the comments were invited by the defense; 3) the extent
to which the prejudice was ameliorated by the court’s
instruction to the jury; 4) the defense’s opportunity to
counter any prejudice; and 5) the weight of the evidence
supporting the conviction.” United States v. Common,
818 F.3d 323, 333 (7th Cir. 2016).
At trial, Kelerchian did not object to the prosecution’s arguments in closing that he now argues are
improper. We therefore review only for plain error. “On
plain-error review, we may reverse if: (1) an error
occurred, (2) the error was plain, (3) it affected the
defendant’s substantial rights, and (4) it seriously
affected the fairness, integrity, or public reputation
of the proceedings.” United States v. Pierson, 925
F.3d 913, 919 (7th Cir. 2019), citing United States v.
Olano, 507 U.S. 725, 732-38 (1993). Together, these
inquiries mean that Kelerchian “must demonstrate that
the comments at issue were ‘obviously’ or ‘clearly’
improper . . . [such] that not only was [he] deprived of a
fair trial, but also that the outcome of the trial
probably would have been different absent the prosecution’s remarks.” United States v. Hills, 618 F.3d

App.39a
619, 640 (7th Cir. 2010) (internal citation omitted). In
essence, the question is whether the argument was
so egregious that the trial judge was required to
intervene without a defense objection.
Kelerchian argues that the government’s rebuttal
improperly appealed to the jurors’ emotions and invited
them to consider the societal consequences of their verdict. Some background is needed on relevant testimony
solicited during trial. There was testimony throughout trial that the machineguns Kelerchian and his coconspirators requested for dealer sales samples were
not appropriate for use by the Sheriff’s Department.
They included a “multipurpose belt-fed machine gun
. . . typically used on top of a Humvee or maybe on the
door of a helicopter” and a “light-weight, belt-fed
machinegun,” “designed for the Navy SEAL teams
for warfare.” Testimony of this nature helped show
that the dealer sales sample letters were fraudulent
because the Sheriff’s Department had no use for the
sample firearms.
In closing, defense counsel responded by pointing
out that the ATF agreed to allow H&K to provide these
weapons to Kelerchian to demonstrate to the Sheriff’s
Department:

App.40a
I want to talk now about the demonstration
letters. Count 3 is charged as a conspiracy.
Counts 4 through 7 are charged as making the
actual statement, the false statement. Every
letter at issue in this case says, well, basically the same thing . . . approximately seven
letters on the Lake County Sheriff’s Department letterhead requesting firearms demonstrations of machine guns from Kelerchian
knowing the same to contain a materially
false, fictitious, and fraudulent statement
because Vahan Kelerchian very well knew
in fact, no demonstration was going to occur.
First of all, ladies and gentlemen, every single
one of those letters was accepted by the ATF,
was signed off by numerous people from the
ATF as justifying the transfer of those guns.
This whole discussion about these guns not
being appropriate for the Lake County
Sheriff’s Department is completely undercut
by ATF signing off and indicating that, in
fact, these are the kinds of weapons that are
justifiable in a demonstration letter.
Defense counsel emphasized the point a second time
in closing: “ATF found [these] letter[s] acceptable.”
In rebuttal, the government responded:
There is no way on earth that these types of
guns, any department would require a demonstration because they’re belt-fed machine
guns . . . [T]hese guns are so far outside the
bounds of what regular law enforcement uses
that there is no legitimate reason to have
them demonstrated. They’re belt-fed machine

App.41a
guns with ammunition that is three inches
long. There’s no reason on earth why any law
enforcement agency would want them to be
demonstrated. Mr. Kelerchian wants those.
He told you that, but there’s no reason an
agency would want them demonstrated. . . .
That’s why the demonstration letters are
utter nonsense because the weapon is so far
out of bounds it doesn’t make any sense.
Under their rationale, the Lake County
Sheriff’s Department, Mr. Kelerchian, could
demonstrate a tank, and he would get to
keep it. How absurd is that? The law isn’t
meant to function in absurdities. It’s meant
to be applied by rational people such as you
to determine what’s acceptable.
Kelerchian argues that the prosecution’s use of
the word “acceptable” invited the jury to decide what
is socially acceptable as opposed to what is legal.
According to the government, its use of the term
“acceptable” in context was meant only to remind the
jury that its job was to determine whether the letters
requesting demonstrations were legitimate. In rejecting
a similar claim of plain error in closing argument, we
have noted that “[l]awyers sometimes are not as precise as they should be when giving extemporaneous
closing arguments.” United States v. Thomas, F.3d
___, ___, 2019 WL 3490675, at *6 (7th Cir. Aug. 1,
2019). This jury was instructed to focus on the
instructions and to remember that lawyers’ arguments
are not evidence. The government’s use of the ambiguous term “acceptable,” which did not even draw
an objection, did not deny Kelerchian a fair trial or rise
to the level of plain error.

App.42a
2. Constructive Amendment
A constructive amendment of an indictment occurs
in violation of the Fifth Amendment when the jury is
allowed “to convict for an offense outside the scope of
the indictment.” Pierson, 925 F.3d at 919-20. Kelerchian
argues that the government’s closing attempted to
change its theory of liability as to the demonstration
letter charges in Counts III through VII. The government argued in rebuttal:
In Instruction Number 27, it tells you how you
get these guns into the country for purposes
of a demonstration. You know, it’s sales samples. That’s what it’s called, dealer samples.
There’s a couple requirements. It’s pretty
loose. I’ll grant you that. And there certainly
doesn’t have to be any demonstration—and
I mentioned that to you in the first part of
my closing—but whether or not one occurs
is sort of helpful to know whether or not
they intended one. And it says that you have
to have a document with specific information
that there was a governmental customer
requiring a demonstration of the weapon.
Again, there was no objection to this argument.
On appeal, Kelerchian argues that the reference to “‘a
document with specific information’ . . . led the jury
to underst[and] that the ‘document’ the government
referred to in relation to Instruction No. 27, [was], in
fact the [demonstration] letters referenced in Counts
3–7.” Although Kelerchian does not spell this out
clearly, he implies that the government changed its
theory for Counts III through VII, arguing now that
the “false statements” were in an unspecified document

App.43a
submitted to H&K as opposed to in the demonstration
letters as alleged in the indictment.
We see no error, let alone a plain error. The
government was always clear that the demonstration
letters were the basis for Counts III through VII.
They were the documents that contained the “specific
information” asserting “that there is a governmental
customer requiring a demonstration of the weapons.”
The government’s closing did not indicate otherwise
simply because in this excerpt it uses the term “document” as opposed to “demonstration letter.”
The judgment of the district court is
AFFIRMED.

App.44a
AMENDED JUDGMENT IN A CRIMINAL CASE,
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF INDIANA
(FEBRUARY 12, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
VAHAN KELERCHIAN,

Defendant.

________________________

Case Number: 2:13CR66-001
USM Number: 12810-027
Kerry C. Connor, P. Jeffrey Schlesinger
Defendant’s Attorneys
Date of Original Judgment Order: 2/7/2018.
Amended on 2/12/2018 to correct administrative error
on page 3, under C.R. 35(a): 2-7 is replaced by 3-7.
THE DEFENDANT was found guilty by Jury on counts
1, 2, 3, 4, 5, 6, 7, and 9 of the Indictment on October 15,
2015.
ACCORDINGLY, the court has adjudicated that the
defendant is guilty of the following offenses:

App.45a
Title, Section &
Nature of Offense
18:371 Conspiracy to
Provide False Information
to a Federal Firearms
Licensee
18:371 Conspiracy To
Defraud Food and Drug
Administration
18:371 Conspiracy to
Make False StatementsDemonstration Letters
18:1001 Making False
Statements to a Federal
Agency
18:1956(h) Conspiracy
to Launder Monetary
Instruments and
Forfeiture

Date
Offense
Ended

Counts
Number(s)

January
2010

1

September
2010

2

March 28,
2010

3

March 28,
2010

4-7

January
2010

9

The defendant is sentenced as provided in pages
2 through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984. The
defendant has been found not guilty on count 8.
IT IS ORDERED that the defendant must notify
the United States Attorney for this district within 30
days of any change of name, residence, or mailing
address until all fines, restitution, costs and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States Attorney of any
material change in economic circumstances.

App.46a
February 5, 2018
Date of Imposition of Judgment
/s/ Joseph S. Van Bokkelen
Signature of Judge
Joseph S. Van Bokkelen
United States District Judge
Name and Title of Judge
Date: February 12, 2018

App.47a
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be imprisoned
for a term of 100 months.


60-month term as to each of the following
counts: Count 1, Count 3, Count 4, Count 5,
Count 6, and Count 7. Each 60-month term for
this group of counts is to be served concurrently
with the other counts in this group.



A 60-month term as to Count 2: 40 of those
months are to be served consecutively as to
Count 1 and Counts 3-7, and 20 of those months
are to be served concurrently with Count 1 and
Counts 3-7.



A 40-month sentence as to Count 9, to be served
consecutively as to Count 1 and Counts 3-7, but
concurrently with Count 2.

The Court makes the following recommendations
to the Bureau of Prisons:
That the defendant be designated to serve his
sentence at Fort Dix, NJ.
That the defendant be given credit for time
served while awaiting sentencing.
The defendant is placed into the custody of the
United States Marshal.

App.48a
RETURN
I have executed this judgment as follows:
Defendant delivered __________ to __________ at
__________, with a certified copy of this judgment.

United States Marshal
By:
Deputy United States Marshal

SUPERVISED RELEASE
After Mr. Kelerchian’s incarceration is over, Mr.
Kelerchian will be placed on supervised release for a
period of 1 year. His supervised release will have
conditions of supervision as stated below, except that
conditions 19, 20, 21 and 22 will cease to be in effect
once all of Mr. Kelerchian’s financial obligations as
related to this case are fulfilled.
1. Mr. Kelerchian may not commit another federal,
state, or local crime.
2. Mr. Kelerchian may not unlawfully use, possess,
or distribute a controlled substance.
3. There’s no evidence that Mr. Kelerchian is in
danger of drug abuse. Accordingly, the mandatory drug
testing condition is suspended.
4. Mr. Kelerchian must cooperate in the collection
of his DNA sample as directed by the probation officer
if the collection of such a sample is authorized pursuant

App.49a
to section 3 of the DNA Analysis Backlog Elimination
Act of 2000.
5. Within 72 hours of release from the custody of
the Bureau of Prisons, Mr. Kelerchian must report
between the hours of 8:00 a.m. and 4:30 p.m. to the
probation office in the district to which he is released.
6. Mr. Kelerchian may not knowingly be outside
the judicial district between the hours of 10:00 p.m.
and 6:00 a.m. without the Court’s or probation officer’s
permission. In any case, Mr. Kelerchian may not knowingly travel more than 50 miles outside the judicial
district without the Court’s or probation officer’s
permission. The probation office will provide Mr. Kelerchian a map describing the boundaries of the judicial
district at the start of supervision. After 12 months of
Mr. Kelerchian being placed on supervision, the probation office must submit a report to the Court indicating
whether the travel restrictions should be lifted or
modified.
7. Mr. Kelerchian must report to the probation
officer in the manner and frequency as reasonably directed by the probation officer. However, he may be
required to report in person at the probation office
only between 8:00 a.m. and 4:30 p.m. on the days the
probation office is open for business.
8. In all matters relating to his conditions of
supervision, Mr. Kelerchian must truthfully answer
the probation officer’s questions. This condition does
not prevent Mr. Kelerchian from invoking his Fifth
Amendment privilege against self-incrimination.
9. Mr. Kelerchian must follow the instructions of
the probation officer as they relate to the conditions
of supervision. Mr. Kelerchian may petition the Court

App.50a
for relief or clarification regarding a condition he
believes has become unreasonable.
10. Mr. Kelerchian must live at a location
approved by the probation officer.
11. If Mr. Kelerchian plans to change where he
lives or anything about his living arrangements (for
example, the people he lives with), he must inform the
probation officer at least 14 days before the change.
If informing the probation officer in advance is not
possible due to unexpected circumstances, Mr. Kelerchian must inform the probation officer as soon as
possible, and no later than 72 hours after the change.
12. If Mr. Kelerchian plans to change where he
works or anything about his work (for example, his
position or his job responsibilities), Mr. Kelerchian
must inform the probation officer at least 14 days
before the change. If informing the probation officer
in advance is not possible due to unexpected circumstances, Mr. Kelerchian must inform the probation
officer within 72 hours after the change.
13. Mr. Kelerchian must notify the probation
officer within 72 hours of being arrested or questioned
by a law enforcement officer.
14. Mr. Kelerchian may not own or possess a
firearm, ammunition, destructive device, or any other
dangerous weapon. A dangerous weapon is an instrument that is specially designed as a weapon.
15. Mr. Kelerchian may not knowingly meet,
communicate, or otherwise interact with a person whom
he knows to be engaged, or planning to be engaged,
in criminal activity.

App.51a
16. Between the hours of 8:00 a.m. and 9:00 p.m.,
Mr. Kelerchian must permit a probation officer to
visit him at home or any other reasonable location and
must permit confiscation of any contraband observed
in plain view by the probation officer. A visit between
the hours of 9:00 p.m. and 8:00 a.m. may be conducted
only when the probation officer has a reasonable
belief that Mr. Kelerchian has violated a condition of
supervision and that a visit during those hours would
reveal information or contraband that would not be
revealed by a visit at any other time.
17. If any portion of the special assessment
remains unpaid when Mr. Kelerchian is released from
prison, he must pay it within 12 weeks of his release,
or, if financially unable to fulfill this requirement, he
must arrange a payment schedule with the probation
office.
18. If a fine is imposed, and if any portion of the
fine remains unpaid when Mr. Kelerchian is released
from prison, he must pay the fine in monthly installments of $1,000 until it is paid in full.
19. Mr. Kelerchian may not incur new credit
charges or open additional lines of credit without the
approval of the probation officer.
20. Upon the probation officer’s request, Mr.
Kelerchian must provide the officer with any financial
information regarding Mr. Kelerchian’s ability to pay
a fine, and must authorize the release of any financial
information. The request must be in writing and
prompted by Mr. Kelerchian’s failure to comply with a
payment schedule ordered for a period of 60 consecutive
days, and the request must describe the specific financial information needed for determining Mr. Keler-

App.52a
chian’s current ability to pay. The probation office will
share Mr. Kelerchian’s financial information with the
U.S. Attorney’s Office.
21. Mr. Kelerchian must notify the probation
officer within 72 hours of any material change in his
economic circumstances that might affect his ability
to pay any Court-ordered financial obligation.
22. Mr. Kelerchian may not transfer, give away,
sell, or otherwise convey any asset $500 without the
approval of the probation officer.

App.53a
CRIMINAL MONETARY PENALTIES
The defendant shall pay the following total
criminal monetary penalties in accordance with the
schedule of payments set forth in this judgment.
Total
Assessment

Total Fine

Total
Restitution

$800

$100,000

NONE

The defendant shall make the special assessment
payment payable to Clerk, U.S. District Court, 5400
Federal Plaza, Suite 2300, Hammond, IN 46320. The
special assessment payment shall be due immediately.
FINE
A fine in the amount of $100,000 is imposed.
RESTITUTION
No restitution imposed.
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine interest, (6)
community restitution, (7) penalties, and (8) costs,
including cost of prosecution and court costs.
FORFEITURE
The defendant shall forfeit $28,200.00 in United
States Currency.

App.54a
ACKNOWLEDGMENT OF
SUPERVISION CONDITIONS
Upon a finding of a violation of probation or
supervised release, I understand that the Court may
(1) revoke supervision, (2) extend the term of supervision, and/or (3) modify the conditions of supervision.
I have reviewed the Judgment and Commitment
Order in my case and the supervision conditions
therein. These conditions have been read to me. I
fully understand the conditions and have been provided
a copy of them.
(Signed)

Defendant

Date

U.S. Probation Officer/
Designated Witness

Date

App.55a
OPINION AND ORDER OF THE UNITED STATES
DISTRICT COURT OF INDIANA, HAMMOND
DIVISION DENYING MOTION TO DISMISS
(APRIL 28, 2017)
UNITED STATES DISTRICT COURT NORTHERN
DISTRICT OF INDIANA HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA
v.
VAHAN KELERCHIAN
________________________
Case No.: 2:13-CR-66 JVB
Before: Joseph S. VAN BOK.KELEN,
United States District Judge
I.
Defendant Vahan Kelerchian was tried before a
Jury on criminal allegations set out in a nine-count
indictment. The charges were as follows:


Count 1: Conspiracy to make false statements to
a federal firearms licensee;



Count 2: Conspiracy to defraud the FDA of its
regulatory function regarding restricted laser
sights;



Count 3: Conspiracy to make false statements in
demonstration letters;

App.56a


Counts 4-7: Making of the false statements in
demonstration letters



Count 8: Bribery; and



Count 9: Conspiracy to commit money laundering.

The Jury found Kelerchian guilty of all counts except
Count 8. As to Count 9, the Court took under advisement Kelerchian’s motion for acquittal. Following the
trial, and after some extensions of deadlines, the
parties submitted briefs regarding their positions.
Kelerchian claims three grounds for acquittal: (1)
the government did not present evidence of concealment
or disguise as required by 18 U.S.C. § 1956; (2) there
was no evidence that Kelerchian received any proceeds
of unlawful activity as required by United States v.
Santos, 553 U.S. 507 (2008); and (3) the facts regarding
the underlying wire fraud charge and the facts regarding the money laundering allegations have been merged
into one offense. Kelerchian also submits that Count
9 is confusing and vague, compounding the legal
problems identified in his brief.
“A motion for judgment of acquittal should be
granted only if there is insufficient evidence to sustain
the jury’s finding.” United States v. O’Hara, 301 F.3d
563, 569 (7th Cir. 2002). Of course, the evidence has
to be viewed in the light most favorable to the government and the conviction may be overturned only
“if the record contains no evidence on which a rational
jury could have returned a guilty verdict.” Id. at 569570.

App.57a
II.
Kelerchian stresses that Count 9 is “written in
a convoluted and vexing manner.” The plain-English
advocates would have no problem agreeing but convoluted and vexing verbiage in an indictment does not
by itself nullify a criminal charge. If a count states
the elements of the crime, informs the defendant of the
nature of the charge, and enables him to plead the
judgment as a bar against future prosecutions for the
same offense, the charge is legally sufficient. United
States v. Agostino, 132 F.3d 1183, 1189 (7th Cir. 1997).
Here, Count 9 falls within these parameters, even
though one may have to draw a diagram to figure it
out. But then again, the convoluted language of the
statutes upon which the count is based may be the
wellspring of the problem.
Moreover, insofar as Kelerchian may now be
challenging the phrasing of Count 9, the challenge is
belated. Under Federal Rule of Criminal Procedure
12(b)(3)(B), motions challenging an indictment must
come before trial. In any case, the government’s filing
of a bill of particulars has mooted any objections to
the sufficiency of Count 9.
III.
Kelerchian argues that the government did not
present evidence of concealment or disguise as required
by 18 U.S.C. § 1956 to sustain a charge for money
laundering. Kelerchian’s argument boils down to this:
since it was rather easy to trace the funds that were
moved around to their original source, the government
failed to prove that there was any attempt to conceal
or disguise the illegal money.

App.58a
Count 9 charged a single conspiracy with two
objects: to violate 18 U.S.C. § 1956(a)(1)(B)(1) (laundering of monetary instruments) and to violate § 1957
(engaging in monetary transactions in property derived
from specified unlawful activity). In particular, Count
9 alleged that Kelerchian conspired with others to
violate § 1956 by engaging in a financial transaction
with the intent to promote the commission of wire
fraud and knowing that the transaction was designed
to conceal and disguise the proceeds of the wire fraud.
Count 9 also alleges that the second object of the
conspiracy was to violate § 1957 by conducting money
transactions with illegally derived money. As the
verdict shows, the jury found that the government
proved both objects of the conspiracy. (DE 183, Jury’s
Verdict at 9.)
The court agrees with the government that it
presented sufficient evidence for a reasonable jury to
find that Kelerchian was guilty of Count 9 as charged.
The firearms transactions were structured in such a
way that Ronald Slusser would be a middle man
between Adam Webber and Kelerchian and the payments from Slusser to Kelerchian would appear as
routine business transactions. In fact, the scheme
worked because the seller of the machine guns, H&K,
was in the dark about the real purchaser of the machine
guns. Had it known that the guns weren’t slated for
the Lake County Sheriff’s department, it would not
have sold the guns. The fact that subsequently an
investigator was able to retrace the path of the money
changes nothing. As the government rightly observes,
the statute requires only that proceeds be concealed,
not that they be concealed well. See United States v.
Naranjo, 634 F.3d 1198, 1210 (11th Cir. 2011). The Jury

App.59a
believed the transactions were structured to cover up
their real nature and there’s nothing in the record to
compel the Court to nullify their finding as to the
conspiracy to violate § 1956.
Similarly, the evidence is sufficient as to the conspiracy to violate § 1957. Congress enacted § 1957 in
hopes of keeping dirty money out of commerce so it
has no value. It is true, as argued by Kelerchian that
United States v. Santos, 553 U.S. 507 (2008), with a
4-4-1 vote, relying on the rule of lenity, held that
“proceeds” must be interpreted to mean the profits
from an underlying offense, not gross receipts. But
following that decision, the Congress clarified that
“proceeds” means “gross receipts” for offenses committed
after May 20, 2009. 18 U.S.C. § 1956(c)(9). As a result,
Santos’s “net profits” definition of the proceeds applies
only to money laundering transactions before May
20, 2009. Yet the conspiracy here spanned from February 2009 until January 2010. As the government
points out in its brief, it proposed to include in the
jury instructions a bifurcated definition of the term
“proceeds,” but Kelerchian ultimately settled for only
the post May 20, 2009, definition. (See DE 178, Jury
Instructions, No. 53, at 55 (“As to Count 9, the term
“proceeds” means—any property derived from or
obtained or retained, directly or indirectly, through
some form of unlawful activity, including the gross
receipts of such activity.”).) Hence, Kelerchian’s argument that the Court misapplied the law is without
basis as is his argument that there was no evidence
of proceeds as a result of the transactions presented
at trial.

App.60a
IV.
Lastly, Kelerchian argues that a merger exists
between the criminal activity that produced the proceeds in this case and subsequent transactions that
give rise to the money laundering count. Both
Kelerchian and the government agree that the acts
that produce the proceeds being laundered must be
distinct from the conduct that constitutes money
laundering. However, they characterize the evidence
on opposite sides of the spectrum.
Kelerchian maintains that the government advanced the theory that payment to Armament Services
(Kelerchian’s business) for the nine MP5s and the
twelve MP3s were both wire fraud and money
laundering, a merger, so to say, that the Supreme
Court warned against in Santos, 553 U.S. at 516.
The government sees it differently: the wire fraud
was accomplished once the machine guns arrived at
the Lake County Sheriffs Department. At that point,
the co-conspirators had total control over the firearms,
and any subsequent financial transaction related to
the machine guns involved proceeds derived from the
completed wire fraud. That is, the subsequent sale of
the machine guns to Weber and transfers of funds
between Slusser and Kelerchian and between Kelerchian and H&K constituted money laundering.
The Court agrees with the government’s characterization of the evidence, and, as a result, finds no basis
for acquittal.
For these reasons and for the reasons laid out in
the government’s response brief, the Court denies
Kelerchian’s motion for acquittal (DE 208).

App.61a
SO ORDERED on April 28, 2017.
/s/ Joseph S. Van Bokkelen
United States District Judge

App.62a
OPINION AND ORDER OF THE
UNITED STATES DISTRICT COURT
OF INDIANA, HAMMOND DIVISION
(JUNE 22, 2015)
UNITED STATES DISTRICT COURT NORTHERN
DISTRICT OF INDIANA HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA
v.
VAHAN KELERCHIAN
________________________
Case No.: 2:13-CR-66 JVB
Before: Joseph S. VAN BOK.KELEN,
United States District Judge
A.

Background

Defendant, Vahan Kelerchian, is the principle
owner and operator of Armament Services International, Inc. Armament Services sells firearms and related
items. Mr. Kelerchian holds a class 3 federal firearms
license allowing him to deal in fully automatic weapons
under the restrictions of the Gun Control Act. Mr.
Kelerchian is accused of having conspired to violate
various federal laws concerning the sale of firearms
and related equipment. He is also accused of bribery,
money laundering, and making false statements.
While the Indictment charges him with nine
counts, only the first two are the subject of this order.

App.63a
According to the government, Mr. Kelerchian and his
co-conspirators, two former Lake County (Indiana)
Sheriff’s Department police officers, illegally acquired
laser sights (Count 2) and H&K machine guns (Count
1). They resold the laser sights for profit; as for the
machine guns, the defendants were interested only in
the resale of their barrels, which are rare because
only the military and law enforcement agencies may
buy the machine guns.
The Indictment alleges that Mr. Kelerchian and his
co-conspirators fraudulently represented to ATF and
other federal firearms licensees that the machine guns
were for the Lake County Sheriff’s Department. To back
up these claims, they used the Lake County Sheriff’s
Department letterhead, fabricated Lake County Sheriff’s Department purchase orders, and issued false
letters in the name of the Sheriffs Department. The
machine guns were shipped to the Sheriffs department
but taken by the co-conspirators to their homes. There
they removed the barrels and sold them. Some of the
barrels were sent to Mr. Kelerchian. On the basis of
these allegations, the Grand Jury charged Mr. Kelerchian with conspiracy to provide false information to
other federal firearms licensees in violation of 18 USC
§§ 371 and 924(a)(1)(A).
Mr. Kelerchian is also accused of conspiring to buy
for resale restricted laser sights, under the guise that
the sights were being purchased for a law enforcement
agency. Once the sights were shipped to the purported
purchasers, they would be intercepted and the accomplices would divide the spoils. On the basis of these
allegations, Mr. Kelerchian is charged in Count 2 with
conspiring to defraud the Food and Drug Administration (FDA), an agency of the United States, by inter-

App.64a
fering with and obstructing the lawful government
function of the FDA. Mr. Kelerchian has moved to
dismiss Counts 1 and 2 of the Indictment, arguing that
they fail to state federal offenses. Also, as to Count 1,
Mr. Kelerchian contends that, at worst, it should only
be a misdemeanor charge.
B.

Count 1

In urging the Court to dismiss Count 1, Mr. Kelerchian argues that there is no reporting requirement
under § 924(a)(1)(A) for the transfer of individual unregulated firearm parts (presumably machine gun barrels).
This argument overlooks the fact that Mr. Kelerchian’s
conspiracy did not merely entail the barrels; rather,
the barrels came attached to the machine guns, and
there was no other way to get them but through misrepresentation that the machine guns were being
purchased by the Sheriff’s department. Insofar as
Mr. Kelerchian is alleged to have conspired to make
false statements to a federally licensed firearms dealer,
statements that were likely to deceive the dealer as
to the lawfulness of the sale, when acquiring these
machine guns, Count 1 states a valid charge. Count 1
is not so much about the dissemination of the machine
guns as about making a false statement to mislead
the dealer that the guns were intended for the Sheriff’s department. While Mr. Kelerchian presents
Grand Jury testimony from one of the co-conspirators
that the machine gun receivers were to stay in the
Sheriff’s department and that Mr. Kelerchian was
interested only in the barrels, this changes nothing.
First, the Grand Jury was not required to believe
such testimony, and, second, this is not what was
ultimately charged in Count 1. Regardless, even if the
conspiracy had been only about the barrels, because

App.65a
they were imported into the country, as opposed to
having been manufactured here, their sales were still
restricted only to military or law enforcement agencies,
and any attempt to deceive the federally licensed
importer about the identity of the buyer violated
§ 924(a)(1)(A).
As the government suggests, Mr. Kelerchian’s
conduct is analogous to a straw purchaser of firearms,
except that the roles of the characters are reversed.
Whereas the straw purchaser claims to be buying
firearms for himself, the conspiracy here was to claim
that the firearms were bought for someone else, that
is, the Sheriff’s Department. If the facts prove to be
otherwise, the jury will exonerate Mr. Kelerchian,
but for the purposes of this order the ultimate facts
are not material; rather, the Court only determines
whether, as stated, Count 1 alleges a chargeable offense.
In the alternative, Mr. Kelerchian argues that,
even if his conduct was controlled by the Gun Control
Act, as a licensed dealer, he is subject only to misdemeanor punishment, as prescribed by 18 U.S.C. § 924
(a)(3).1 However, that is not the law in this Circuit:
The Supreme Court has made clear that when
multiple criminal statutes apply to the same
conduct, the prosecutor has the discretion
to choose under which statute to proceed.
Neither is a defendant entitled to choose
1 Under this section, “[a]ny licensed dealer . . . who knowingly
. . . makes any false statement or representation with respect to
the information required by the provisions of this chapter to be
kept in the records of a person licensed under this chapter
. . . shall be fined under this title, imprisoned not more than one
year, or both.” 18 U.S.C. § 924(a)(3).

App.66a
the penalty scheme under which he will be
sentenced. In this case, the prosecutor in
the exercise of her prosecutorial discretion
chose to charge [the defendant] under the
felony provision of the statute and not the
misdemeanor provision, and it was within
her discretion to do so.

United States v. Rietzke, 279 F.3d 541, 545-46 (7th

Cir. 2002) (dismissing defendant’s argument that, since
he was a firearms dealer, the government had to charge
him under the misdemeanor provision of § 924(a)(3))
(citations and quotation marks omitted).

C.

Count 2

Mr. Kelerchian argues that Count 2 does not state
an offense pursuant to the “defraud” clause of 18
U.S.C. § 371 and must be dismissed. He notes that
no statute restricts the sale of laser aiming devices to
military or law enforcement agencies, and insists
that applying § 371 in this case will open the doors
for the government to prosecute just about anyone
who interferes with a federal agency, no matter how
slightly, no matter how remotely. Mr. Kelerchian recalls
“Learned Hand [who] referred to the general conspiracy
statute as the ‘darling of the modern prosecutor’s
nursery,’“ Harrison v. United States, 7 F.2d 259, 263
(2nd Cir. 1925), and questions how far the government’s
reach will be allowed.
Section 371 is far reaching indeed:
If two or more persons conspire either to
commit any offense against the United States,
or to defraud the United States, or any
agency thereof in any manner or for any

App.67a
purpose, and one or more of such persons do
any act to effect the object of the conspiracy,
each shall be fined under this title or imprisoned not more than five years, or both.
And as the number of agencies increases and their
scope widens, so does the grasp of § 371.
Yet, political considerations aside, the question
in this case is whether the government has sufficiently
alleged that Mr. Kelerchian conspired with others to
defraud an agency of the United States—the FDA—in
any manner or for any purpose, and whether Mr.
Kelerchian or his confederates did any act to effect
the object of the conspiracy.
Mr. Kelerchian submits that the government’s case
is based upon the FDA’s variance letter to Insight
Technology, Inc., the manufacturer from whom Mr.
Kelerchian and his cohorts purchased the laser sights.
He argues that the government, not being able to rely
upon any statute directly prohibiting the sales, is
using the letter as if it were the criminal statute in
force. In addition, Mr. Kelerchian maintains that the
FDA’s statutory and regulatory authority does not
extend to purchasers, or at best, its authority is
limited to civil enforcement.
But the government does not argue that the variance letter supplants the statute. Instead, it recognizes
that the FDA has the authority and an interest in
regulating radiation emitting products, such as laser
sights. Its regulations have the force of law. For example, the FDA sets performance standards for laser
products, 21 C.F.R. § 1040.10, and for specific purpose
laser products, § 1040.11. Congress has backed up
FDA’s authority by making it unlawful—

App.68a
(1) for any manufacturer to introduce, or to
deliver for introduction, into commerce, or to
import into the United States, any electronic
product which does not comply with an
applicable standard prescribed pursuant to
section 360kk of this title; [or]
...
(3) for any person to fail or to refuse to
establish or maintain records required by this
part or to permit access by the Secretary or
any of his duly authorized representatives to,
or the copying of, such records, or to permit
entry or inspection, as required by or pursuant to section 360nn of this title.
21 U.S.C. § 360oo.
The FDA also has rules for variances from its
general standards. 21 C.F.R. §§ 1040.4, 1002. As relevant here, the FDA granted a variance to Insight to
sell Class IIIb lasers without various safety precautions
to military and law enforcement agencies (the sound,
light, and coloring meant to warn about high radiation
levels is generally incompatible with combat or law
enforcement use). In turn, Insight had to agree that
it would restrict the sales of the laser aiming sights to
law enforcement agencies and that each sale and
promotional literature would include a statement about
such restrictions. Moreover, Insight agreed to keep a
record of laser sight buyers.
This scheme allows the FDA to oversee the safe
application of radio emitting devices among civilians,
while monitoring the sales of devices without standard
safety features. That is a legitimate function of the
FDA. When, as alleged, Mr. Kelerchian agreed with

App.69a
others to lie to Insight about who the real purchaser of
the laser sights was, they obstructed the FDA. Such
deceit, craft, or trickery, if true, exposed Mr. Kelerchian
to criminal liability under § 371.2 Mr. Kelerchian’s
argument that the FDA’s statutory and regulatory
authority is limited to civil enforcement is unavailing.
D. Order
For these reasons, the Court denies Mr. Kelerchian’s motions to dismiss Counts 1 and 2 of the Indictment (DEs 62 & 63).
SO ORDERED on June 22, 2015.
/s/ Joseph S. Van Bokkelen
United States District Judge

2 One of the co-conspirators attested at the time of the sale that
the following statement was true:
We/I hereby acknowledge that the sale of the IR LAM,
(Laser Aiming Module), MR6-IR, M6X-IR, AN/PAQ-4C,
AN/PEQ-2A, MTM-IR, ISM-IR, and CIL is regulated
by the FDA (Food and Drug Administration) and all
terms of sale must be complied with. Sale of these laser
aiming lights is restricted to government, military,
and law enforcement agencies under a direct purchase
order from the agency and shall not be sold or transferred to individual law enforcement or civilian personnel. Use of this product is restricted to approved
agencies. It is understood that it is the purchasing
agency’s responsibility to monitor possession of this
equipment and that it will be disabled, destroyed, or
returned to the manufacturer in the event that the
agency’s need for the equipment expires.

App.70a
ORDER OF THE UNITED STATES DISTRICT
COURT OF INDIANA, HAMMOND DIVISION
ON MOTIONS IN LIMINE
(SEPTEMBER 30, 2015)
UNITED STATES DISTRICT COURT NORTHERN
DISTRICT OF INDIANA HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA
v.
VAHAN KELERCHIAN
________________________
Case No.: 2:13-CR-66 JVB
Before: Joseph S. VAN BOK.KELEN,
United States District Judge
Before the Court are several pretrial motions. The
following constitutes the Court’s preliminary rulings.1

1 All rulings are preliminary and the parties may ask the Court
to reconsider them as the evidence develops at trial. See United
States v. Connelly, 874 F.2d 412, 416 (7th Cir. 1989) (“[A] ruling
[in limine] is subject to change when the case unfolds, particularly if the actual testimony differs from what was contained in
the proffer. Indeed even if nothing unexpected happens at trial,
the district judge is free, in the exercise of sound judicial discretion, to alter a previous in limine ruling.”) (quoting Luce v. United
States, 469 U.S. 38, 41 (1984)).

App.71a
A.

Government’s Motions in Limine

The government makes eleven requests concerning
the anticipated evidence to be introduced by Defendant.
The Court will address them in the order set out in
the government’s brief
1. Request to preclude evidence of Defendant’s
good character or non-corrupt behavior.
a.

This is a Rule 405 issue. This rule is wellknown and all evidence will be subject to this
rule.

2. Request to preclude Insight’s challenge of the
FDA variance requirement regarding laser sights.
a.

The Court grants this request. There’s no
legitimate purpose in introducing Insight’s
quarrel with the FDA into this case, especially
since this it started after the events in
question.

3. Request to preclude argument or questioning
regarding penalties faced by Defendant.
a.

The Court grants this request.

4. Request to prevent Defendant’s counsel from
inquiry to elicit jury nullification [sic].
a.

This request is granted, but only in the
strictest sense of the word “to nullify.”

5. Request to not allow argument or questioning
of Defendant regarding his age, health, and family
needs.
a.

The request is too broad. So long as the evidence is relevant, it will be allowed.

App.72a
6. The Sixth request will be granted because
Defendant’s counsel have represented that they will
not be suggesting that the government’s prosecution
was selective.
7. Same with the Seventh request.
8. Request to forbid presentation of evidence and
argument regarding the lack of Defendant’s criminal
history.
a.

Again, if such evidence will be presented by
Defendant, the Court will employ Rule 405
to determine its admissibility.

9. As for the ninth request, Defendant’s counsel
agreed not to argue about discovery in the presence
of the jury.
10. Request to disallow evidence of the postponement of the co-conspirators sentences.
a.

The Court denies this request. Such information is the classic example for possible bias
in a witness, which Defendant has a right to
bring before the jury.

11. The last request relates to civil and criminal
penalties faced by Defendant, which is the same as
the third request, which the Court granted above.
B.

Defendant’s Motions in Limine

As for Defendant, he makes six requests concerning
the evidence he expects from the government.
(1) Request to disallow the government from using
summary exhibits.

App.73a
(a) So long as the summary exhibits are accurate,
they will be allowed as provided by Rule
1006.
(2) Request to prevent the government from fear
mongering.
(a) The government assures that it won’t fear
monger anyone.
(3) Request to prevent the government from
arguing that a sear is a machinegun.
(a) In its response, the government concedes
that such argument would be inappropriate.
(4) Request to prevent the government from eliciting testimony that the co-conspirators have been
convicted of the same charges as Defendant.
(a) The Court will take this motion under advisement.2 However, the Court is likely to allow
such evidence with a limiting instruction not
to consider such evidence in determining
Defendant’s guilt or innocence. The government should propose a limiting instruction
to be used at the time such evidence may be
elicited.
(5) Request to prevent the government from introducing episodes from the TV show Sons of Guns
featuring Defendant.
(a) The government has agreed not to introduce
any recordings from this show.
2 The parties may not refer in front of jury to any matter that
has been taken under advisement. The party seeking the admission of evidence that is pending the Court’s ruling may ask for
such ruling outside the presence of the jury.

App.74a
C.

Defendant’s Motion to Reconsider Its Ruling
Denying His Motion to Dismiss Count 1 of the
Indictment

Defendant once again submits that the grand jury
had no authority to charge Defendant under 18 U.S.C.
§ 924. The government submitted a well-reasoned
response which the Court accepts in its entirety. For
this reason, Defendant’s motion to reconsider is denied.
D.

Defendant’s Objection to Government’s Experts

The Court takes Defendant’s objections under
advisement because it wants to see how the evidence
develops and in what context the expert testimony
will be offered.
SO ORDERD [sic] on September 30, 2015.
/s/ Joseph S. Van Bokkelen
United States District Judge

App.75a
CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. CONST., AMEND. V.
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in
the Militia, when in actual service in time of
War or public danger; nor shall any person be
subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property,
without due process of law; nor shall private
property be taken for public use, without just
compensation.
18 U.S.C. § 371
If two or more persons conspire either to commit any offense against the United States, or to
defraud the United States, or any agency thereof
in any manner or for any purpose, and one or more
of such persons do any act to effect the object of
the conspiracy, each shall be fined under this
title or imprisoned not more than five years, or
both.
If, however, the offense, the commission of which
is the object of the conspiracy, is a misdemeanor
only, the punishment for such conspiracy shall
not exceed the maximum punishment provided
for such misdemeanor.

App.76a
18 U.S.C. § 1343
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses, representations, or promises, transmits
or causes to be transmitted by means of wire,
radio, or television communication in interstate
or foreign commerce, any writings, signs, signals,
pictures, or sounds for the purpose of executing
such scheme or artifice, shall be fined under this
title or imprisoned not more than 20 years, or
both. If the violation occurs in relation to, or
involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are defined
in section 102 of the Robert T. Stafford Disaster
Relief and Emergency Assistance Act (42 U.S.C.
5122)), or affects a financial institution, such
person shall be fined not more than $1,000,000
or imprisoned not more than 30 years, or both.
18 U.S.C. § 1346
For the purposes of this chapter, the term
“scheme or artifice to defraud” includes a scheme
or artifice to deprive another of the intangible
right of honest services.
18 U.S.C. § 1956
(a)
(1) Whoever, knowing that the property involved
in a financial transaction represents the proceeds of

App.77a
some form of unlawful activity, conducts or attempts
to conduct such a financial transaction which in fact
involves the proceeds of specified unlawful activity—
(A)
(i)

with the intent to promote the carrying on
of specified unlawful activity; or

(ii) with intent to engage in conduct constituting a violation of section 7201 or 7206 of
the Internal Revenue Code of 1986; or
(B) knowing that the transaction is designed in
whole or in part—
(i)

to conceal or disguise the nature, the
location, the source, the ownership, or the
control of the proceeds of specified unlawful
activity; or

(ii) to avoid a transaction reporting requirement
under State or Federal law, shall be sentenced
to a fine of not more than $500,000 or twice
the value of the property involved in the
transaction, whichever is greater, or imprisonment for not more than twenty years, or
both. For purposes of this paragraph, a financial transaction shall be considered to be one
involving the proceeds of specified unlawful
activity if it is part of a set of parallel or
dependent transactions, any one of which
involves the proceeds of specified unlawful
activity, and all of which are part of a single
plan or arrangement.
(2) Whoever transports, transmits, or transfers,
or attempts to transport, transmit, or transfer a
monetary instrument or funds from a place in the

App.78a
United States to or through a place outside the
United States or to a place in the United States from
or through a place outside the United States—
(A) with the intent to promote the carrying on
of specified unlawful activity; or
(B) knowing that the monetary instrument or
funds involved in the transportation, transmission, or transfer represent the proceeds of some
form of unlawful activity and knowing that such
transportation, transmission, or transfer is
designed in whole or in part—
(i)

to conceal or disguise the nature, the location, the source, the ownership, or the control
of the proceeds of specified unlawful activity;
or

(ii) to avoid a transaction reporting requirement
under State or Federal law, shall be sentenced
to a fine of not more than $500,000 or twice
the value of the monetary instrument or
funds involved in the transportation, transmission, or transfer, whichever is greater,
or imprisonment for not more than twenty
years, or both. For the purpose of the offense
described in subparagraph (B), the defendant’s knowledge may be established by proof
that a law enforcement officer represented
the matter specified in subparagraph (B) as
true, and the defendant’s subsequent statements or actions indicate that the defendant
believed such representations to be true.
(3) Whoever, with the intent—

App.79a
(A) to promote the carrying on of specified
unlawful activity;
(B) to conceal or disguise the nature, location,
source, ownership, or control of property believed
to be the proceeds of specified unlawful activity;
or
(C) to avoid a transaction reporting requirement under State or Federal law, conducts or
attempts to conduct a financial transaction involving property represented to be the proceeds of
specified unlawful activity, or property used to
conduct or facilitate specified unlawful activity,
shall be fined under this title or imprisoned for
not more than 20 years, or both. For purposes of
this paragraph and paragraph (2), the term
“represented” means any representation made
by a law enforcement officer or by another person
at the direction of, or with the approval of, a
Federal official authorized to investigate or
prosecute violations of this section.
(b) Penalties.—
(1) In general.—Whoever conducts or attempts
to conduct a transaction described in subsection
(a)(1) or (a)(3), or section 1957, or a transportation,
transmission, or transfer described in subsection
(a)(2), is liable to the United States for a civil penalty
of not more than the greater of—
(A) the value of the property, funds, or
monetary
instruments
involved
in
the
transaction; or
(B) $10,000.

App.80a
(2) Jurisdiction over foreign persons.—For
purposes of adjudicating an action filed or enforcing a
penalty ordered under this section, the district courts
shall have jurisdiction over any foreign person,
including any financial institution authorized under
the laws of a foreign country, against whom the
action is brought, if service of process upon the
foreign person is made under the Federal Rules of
Civil Procedure or the laws of the country in which
the foreign person is found, and—
(A) the foreign person commits an offense under
subsection (a) involving a financial transaction
that occurs in whole or in part in the United
States;
(B) the foreign person converts, to his or her
own use, property in which the United States
has an ownership interest by virtue of the entry
of an order of forfeiture by a court of the United
States; or
(C) the foreign person is a financial institution
that maintains a bank account at a financial
institution in the United States.
(3) Court authority over assets.—
A court may issue a pretrial restraining order or
take any other action necessary to ensure that
any bank account or other property held by the
defendant in the United States is available to
satisfy a judgment under this section.
(4) Federal receiver.—
(A) In general.—A court may appoint a Federal
Receiver, in accordance with subparagraph (B)
of this paragraph, to collect, marshal, and take

App.81a
custody, control, and possession of all assets of
the defendant, wherever located, to satisfy a civil
judgment under this subsection, a forfeiture
judgment under section 981 or 982, or a criminal
sentence under section 1957 or subsection (a) of
this section, including an order of restitution to
any victim of a specified unlawful activity.
(B) Appointment and authority.—A Federal
Receiver described in subparagraph (A)—
(i)

may be appointed upon application of a
Federal prosecutor or a Federal or State
regulator, by the court having jurisdiction
over the defendant in the case;

(ii) shall be an officer of the court, and the
powers of the Federal Receiver shall include
the powers set out in section 754 of title 28,
United States Code; and
(iii) shall have standing equivalent to that of a
Federal prosecutor for the purpose of
submitting requests to obtain information
regarding the assets of the defendant—
(I)

from the Financial Crimes Enforcement
Network of the Department of the
Treasury; or

(II) from a foreign country pursuant to a
mutual legal assistance treaty, multilateral agreement, or other arrangement for international law enforcement
assistance, provided that such requests
are in accordance with the policies and
procedures of the Attorney General.

App.82a
(c) As used in this section—
(1) the term “knowing that the property involved
in a financial transaction represents the proceeds of
some form of unlawful activity” means that the
person knew the property involved in the transaction
represented proceeds from some form, though not
necessarily which form, of activity that constitutes a
felony under State, Federal, or foreign law, regardless of whether or not such activity is specified in
paragraph (7);
(2) the term “conducts” includes initiating, concluding, or participating in initiating, or concluding a
transaction;
(3) the term “transaction” includes a purchase,
sale, loan, pledge, gift, transfer, delivery, or other disposition, and with respect to a financial institution
includes a deposit, withdrawal, transfer between
accounts, exchange of currency, loan, extension of
credit, purchase or sale of any stock, bond, certificate
of deposit, or other monetary instrument, use of a
safe deposit box, or any other payment, transfer, or
delivery by, through, or to a financial institution, by
whatever means effected;
(4) the term “financial transaction” means (A) a
transaction which in any way or degree affects interstate or foreign commerce (i) involving the movement
of funds by wire or other means or (ii) involving one
or more monetary instruments, or (iii) involving the
transfer of title to any real property, vehicle, vessel,
or aircraft, or (B) a transaction involving the use of a
financial institution which is engaged in, or the activities of which affect, interstate or foreign commerce
in any way or degree;

App.83a
(5) the term “monetary instruments” means (i)
coin or currency of the United States or of any other
country, travelers’ checks, personal checks, bank checks,
and money orders, or (ii) investment securities or
negotiable instruments, in bearer form or otherwise
in such form that title thereto passes upon delivery;
(6) the term “financial institution” includes—
(A) any financial institution, as defined in
section 5312(a)(2) of title 31, United States Code,
or the regulations promulgated thereunder; and
(B) any foreign bank, as defined in section 1 of
the International Banking Act of 1978 (12 U.S.C.
3101);
(7) the
means—

term

“specified

unlawful

activity”

(A) any act or activity constituting an offense
listed in section 1961(1) of this title except an act
which is indictable under subchapter II of
chapter 53 of title 31;
(B) with respect to a financial transaction
occurring in whole or in part in the United
States, an offense against a foreign nation
involving—
(i)

the manufacture, importation, sale, or
distribution of a controlled substance (as
such term is defined for the purposes of the
Controlled Substances Act);

(ii) murder, kidnapping, robbery, extortion,
destruction of property by means of explosive or fire, or a crime of violence (as defined
in section 16);

App.84a
(iii) fraud, or any scheme or attempt to defraud,
by or against a foreign bank (as defined in
paragraph 7 of section 1(b) of the International Banking Act of 1978));
(iv) bribery of a public official, or the misappropriation, theft, or embezzlement of public
funds by or for the benefit of a public
official;
(v) smuggling or
involving—
(I)

export

control

violations

an item controlled on the United States
Munitions List established under
section 38 of the Arms Export Control
Act (22 U.S.C. 2778); or

(II) an item controlled under regulations
under the Export Administration
Regulations (15 C.F.R. Parts 730–774);
(vi) an offense with respect to which the United
States would be obligated by a multilateral
treaty, either to extradite the alleged offender
or to submit the case for prosecution, if the
offender were found within the territory of
the United States; or
(vii) trafficking in persons, selling or buying of
children, sexual exploitation of children, or
transporting, recruiting or harboring a
person, including a child, for commercial sex
acts;
(C) any act or acts constituting a continuing
criminal enterprise, as that term is defined in
section 408 of the Controlled Substances Act (21
U.S.C. 848);

App.85a
(D) an offense under section 32 (relating to the
destruction of aircraft), section 37 (relating to
violence at international airports), section 115
(relating to influencing, impeding, or retaliating
against a Federal official by threatening or injuring a family member), section 152 (relating to
concealment of assets; false oaths and claims;
bribery), section 175c (relating to the variola virus),
section 215 (relating to commissions or gifts for
procuring loans), section 351 (relating to congressional or Cabinet officer assassination), any
of sections 500 through 503 (relating to certain
counterfeiting offenses), section 513 (relating to
securities of States and private entities), section
541 (relating to goods falsely classified), section
542 (relating to entry of goods by means of false
statements), section 545 (relating to smuggling
goods into the United States), section 549 (relating
to removing goods from Customs custody), section
554 (relating to smuggling goods from the United
States), section 555 (relating to border tunnels),
section 641 (relating to public money, property,
or records), section 656 (relating to theft,
embezzlement, or misapplication by bank officer
or employee), section 657 (relating to lending,
credit, and insurance institutions), section 658
(relating to property mortgaged or pledged to
farm credit agencies), section 666 (relating to
theft or bribery concerning programs receiving
Federal funds), section 793, 794, or 798 (relating
to espionage), section 831 (relating to prohibited
transactions involving nuclear materials), section 844(f) or (i) (relating to destruction by explosives or fire of Government property or property affecting interstate or foreign commerce),

App.86a
section 875 (relating to interstate communications), section 922(l) (relating to the unlawful
importation of firearms), section 924(n) (relating
to firearms trafficking), section 956 (relating to
conspiracy to kill, kidnap, maim, or injure certain
property in a foreign country), section 1005 (relating to fraudulent bank entries), 1006 [2] (relating
to fraudulent Federal credit institution entries),
1007 (relating to Federal Deposit Insurance transactions), 1014 (relating to fraudulent loan or
credit applications), section 1030 (relating to
computer fraud and abuse), 1032 (relating to
concealment of assets from conservator, receiver,
or liquidating agent of financial institution), section 1111 (relating to murder), section 1114
(relating to murder of United States law enforcement officials), section 1116 (relating to murder
of foreign officials, official guests, or internationally protected persons), section 1201
(relating to kidnaping), section 1203 (relating to
hostage taking), section 1361 (relating to willful
injury of Government property), section 1363
(relating to destruction of property within the
special maritime and territorial jurisdiction),
section 1708 (theft from the mail), section 1751
(relating to Presidential assassination), section
2113 or 2114 (relating to bank and postal
robbery and theft), section 2252A (relating to
child pornography) where the child pornography
contains a visual depiction of an actual minor
engaging in sexually explicit conduct, section
2260 (production of certain child pornography
for importation into the United States), section
2280 (relating to violence against maritime
navigation), section 2281 (relating to violence

App.87a
against maritime fixed platforms), section 2319
(relating to copyright infringement), section
2320 (relating to trafficking in counterfeit goods
and services), section 2332 (relating to terrorist
acts abroad against United States nationals),
section 2332a (relating to use of weapons of
mass destruction), section 2332b (relating to
international terrorist acts transcending national
boundaries), section 2332g (relating to missile
systems designed to destroy aircraft), section
2332h (relating to radiological dispersal devices),
section 2339A or 2339B (relating to providing
material support to terrorists), section 2339C
(relating to financing of terrorism), or section
2339D (relating to receiving military-type training
from a foreign terrorist organization) of this title,
section 46502 of title 49, United States Code, a
felony violation of the Chemical Diversion and
Trafficking Act of 1988 (relating to precursor
and essential chemicals), section 590 of the
Tariff Act of 1930 (19 U.S.C. 1590) (relating to
aviation smuggling), section 422 of the Controlled Substances Act (relating to transportation
of drug paraphernalia), section 38(c) (relating to
criminal violations) of the Arms Export Control
Act, section 11 [3] (relating to violations) of the
Export Administration Act of 1979, section 206
(relating to penalties) of the International Emergency Economic Powers Act, section 16 (relating
to offenses and punishment) of the Trading with
the Enemy Act, any felony violation of section 15
of the Food and Nutrition Act of 2008 (relating
to supplemental nutrition assistance program
benefits fraud) involving a quantity of benefits
having a value of not less than $5,000, any viola-

App.88a
tion of section 543(a)(1) of the Housing Act of
1949 (relating to equity skimming), any felony
violation of the Foreign Agents Registration Act
of 1938, any felony violation of the Foreign Corrupt Practices Act, section 92 of the Atomic
Energy Act of 1954 (42 U.S.C. 2122) (relating to
prohibitions governing atomic weapons), or section 104(a) of the North Korea Sanctions Enforcement Act of 2016 (relating to prohibited activities
with respect to North Korea);
ENVIRONMENTAL CRIMES
(E) a felony violation of the Federal Water
Pollution Control Act (33 U.S.C. 1251 et seq.),
the Ocean Dumping Act (33 U.S.C. 1401 et seq.),
the Act to Prevent Pollution from Ships (33
U.S.C. 1901 et seq.), the Safe Drinking Water
Act (42 U.S.C. 300f et seq.), or the Resources
Conservation and Recovery Act (42 U.S.C. 6901
et seq.);
(F) any act or activity constituting an offense
involving a Federal health care offense; or
(G) any act that is a criminal violation of subparagraph (A), (B), (C), (D), (E), or (F) of paragraph
(1) of section 9(a) of the Endangered Species Act
of 1973 (16 U.S.C. 1538(a)(1)), section 2203 of
the African Elephant Conservation Act (16 U.S.C.
4223), or section 7(a) of the Rhinoceros and Tiger
Conservation Act of 1994 (16 U.S.C. 5305a(a)), if
the endangered or threatened species of fish or
wildlife, products, items, or substances involved
in the violation and relevant conduct, as applicable, have a total value of more than $10,000;

App.89a
(8) the term “State” includes a State of the United
States, the District of Columbia, and any commonwealth, territory, or possession of the United States; and
(9) the term “proceeds” means any property
derived from or obtained or retained, directly or indirectly, through some form of unlawful activity,
including the gross receipts of such activity.
(d) Nothing in this section shall supersede any
provision of Federal, State, or other law imposing
criminal penalties or affording civil remedies in
addition to those provided for in this section.
(e) Violations of this section may be investigated by
such components of the Department of Justice as the
Attorney General may direct, and by such components of the Department of the Treasury as the
Secretary of the Treasury may direct, as appropriate,
and, with respect to offenses over which the Department of Homeland Security has jurisdiction, by such
components of the Department of Homeland Security
as the Secretary of Homeland Security may direct,
and, with respect to offenses over which the United
States Postal Service has jurisdiction, by the Postal
Service. Such authority of the Secretary of the
Treasury, the Secretary of Homeland Security, and
the Postal Service shall be exercised in accordance
with an agreement which shall be entered into by the
Secretary of the Treasury, the Secretary of Homeland
Security, the Postal Service, and the Attorney
General. Violations of this section involving offenses
described in paragraph (c)(7)(E) may be investigated
by such components of the Department of Justice as
the Attorney General may direct, and the National
Enforcement Investigations Center of the Environmental Protection Agency.

App.90a
(f) There is extraterritorial jurisdiction over the
conduct prohibited by this section if—
(1) the conduct is by a United States citizen or,
in the case of a non-United States citizen, the
conduct occurs in part in the United States; and
(2) the transaction or series of related
transactions involves funds or monetary instruments
of a value exceeding $10,000.
(g) Notice of Conviction of Financial Institutions.—If
any financial institution or any officer, director, or
employee of any financial institution has been found
guilty of an offense under this section, section 1957
or 1960 of this title, or section 5322 or 5324 of title
31, the Attorney General shall provide written notice
of such fact to the appropriate regulatory agency for
the financial institution.
(h) Any person who conspires to commit any offense
defined in this section or section 1957 shall be
subject to the same penalties as those prescribed for
the offense the commission of which was the object of
the conspiracy.
(i) Venue.—
(1) Except as provided in paragraph (2), a
prosecution for an offense under this section or
section 1957 may be brought in—
(A) any district in which the financial or
monetary transaction is conducted; or
(B) any district where a prosecution for the
underlying specified unlawful activity could be
brought, if the defendant participated in the
transfer of the proceeds of the specified unlawful

App.91a
activity from that district to the district where
the financial or monetary transaction is conducted.
(2) A prosecution for an attempt or conspiracy
offense under this section or section 1957 may be
brought in the district where venue would lie for the
completed offense under paragraph (1), or in any
other district where an act in furtherance of the
attempt or conspiracy took place.
(3) For purposes of this section, a transfer of
funds from 1 place to another, by wire or any other
means, shall constitute a single, continuing transaction. Any person who conducts (as that term is defined
in subsection (c)(2)) any portion of the transaction may
be charged in any district in which the transaction
takes place.
18 U.S.C. § 1957
(a) Whoever, in any of the circumstances set
forth in subsection (d), knowingly engages or
attempts to engage in a monetary transaction in
criminally derived property of a value greater
than $10,000 and is derived from specified
unlawful activity, shall be punished as provided
in subsection (b).
(b)
(1) Except as provided in paragraph (2), the
punishment for an offense under this section
is a fine under title 18, United States Code,
or imprisonment for not more than ten
years or both. If the offense involves a preretail medical product (as defined in section
670) the punishment for the offense shall be
the same as the punishment for an offense

App.92a
under section 670 unless the punishment
under this subsection is greater.
(2) The court may impose an alternate fine to
that imposable under paragraph (1) of not
more than twice the amount of the criminally derived property involved in the transaction.
(c) In a prosecution for an offense under this
section, the Government is not required to prove
the defendant knew that the offense from which
the criminally derived property was derived was
specified unlawful activity.
(d) The circumstances referred to in subsection
(a) are—
(1) that the offense under this section takes
place in the United States or in the special
maritime and territorial jurisdiction of the
United States; or
(2) that the offense under this section takes
place outside the United States and such
special jurisdiction, but the defendant is a
United States person (as defined in section
3077 of this title, but excluding the class
described in paragraph (2)(D) of such
section).
(e) Violations of this section may be investigated by such components of the Department of
Justice as the Attorney General may direct, and
by such components of the Department of the
Treasury as the Secretary of the Treasury may
direct, as appropriate, and, with respect to offenses
over which the Department of Homeland Secu-

App.93a
rity has jurisdiction, by such components of the
Department of Homeland Security as the Secretary of Homeland Security may direct, and, with
respect to offenses over which the United States
Postal Service has jurisdiction, by the Postal
Service. Such authority of the Secretary of the
Treasury, the Secretary of Homeland Security,
and the Postal Service shall be exercised in
accordance with an agreement which shall be
entered into by the Secretary of the Treasury,
the Secretary of Homeland Security, the Postal
Service, and the Attorney General.
(f)

As used in this section—

(1) the term “monetary transaction” means the
deposit, withdrawal, transfer, or exchange,
in or affecting interstate or foreign commerce,
of funds or a monetary instrument (as defined
in section 1956(c)(5) of this title) by, through,
or to a financial institution (as defined in
section 1956 of this title), including any
transaction that would be a financial transaction under section 1956(c)(4)(B) of this
title, but such term does not include any
transaction necessary to preserve a person’s
right to representation as guaranteed by the
sixth amendment to the Constitution;
(2) the term “criminally derived property” means
any property constituting, or derived from,
proceeds obtained from a criminal offense;
and
(3) the terms “specified unlawful activity” and
“proceeds” shall have the meaning given
those terms in section 1956 of this title.

App.94a
INDICTMENT
(MAY 17, 2013)
UNITED STATES DISTRICT COURT NORTHERN
DISTRICT OF INDIANA HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA
v.
VAHAN KELERCHIAN
________________________
Cause NO:
18 U.S.C. § 2
18 U.S.C. § 371
18 U.S.C. § 666(a)(2)
18 U.S.C. § 924(a)(1)(A)
18 U.S.C. § 924(d)
18 U.S.C. § 1001
18 U.S.C. § 1956(h)
INDICTMENT
THE GRAND JURY CHARGES:
COUNT 1
(Conspiring to Provide False Information to a
Federal Firearms Licensee)
At all times material to this indictment:

App.95a
BACKGROUND
1. VAHAN KELERCHIAN (KELERCHIAN) was
the principal owner and operator Armament Services
International Inc., (ASI). ASI is engaged in the sale of
firearms and related items primarily through Internet
sales.
2. ASI principal place of business is located in
Warminster, Pennsylvania.
3. KELERCHIAN holds a Class 3 Federal
Firearms License (FFL) allowing him to deal in fully
automatic weapons. KELERCHIAN also holds
licenses to manufacture firearms and sell destructive
devices, (i.e. grenade launchers).
4. The Lake County Sheriff’s Department was a
law enforcement agency operating in Lake County,
Indiana.
5. JOSEPH R. KUMSTAR was employed for
approximately 17 years as a sworn law enforcement
officer with the Lake County Sheriff’s Department,
and served as the Deputy Chief for the Lake County
Sheriff’s Department.
6. RONALD D. SLUSSER was employed for
approximately ten (10) years as a sworn law enforcement officer with the Lake County Sheriff’s Department, was a member of the Lake County Sheriff’s
Department Special Weapons and Tactics (SWAT)
unit and a firearms instructor.
7. E & R Law Enforcement Sales was a Federal
Firearms Licensee (FFL) based in Crown Point,
Indiana, owned and operated in part by RONALD D.
SLUSSER. RONALD D. SLUSSER previously held a

App.96a
Federal Firearms License while operating individually as “Ron’s Gun Sales.”
8. R & D Law Enforcement Sales was another Federal Firearms Licensee (FFL), based in Merrillville,
Indiana, and owned and operated in part by RONALD
D. SLUSSER.
9. PF Custom Guns was a Federal Firearms
Licensee (FFL).
10. Heckler and Koch (hereinafter H&K) was a
well know German based firearms manufacturer
producing a wide assortment of handguns, rifles,
machineguns, and submachineguns for both military
and civilian use. H&K had numerous subsidiaries
operating within the United States in Virginia, New
Hampshire, and Georgia. H&K had served as a
United States government contractor for the both the
United States Military and United States civilian
law enforcement agencies, H&K was a Federal
Firearms Licensee (FFL).
10. Insight Technology Inc., (hereinafter Insight)
located in Londonderry, New Hampshire, was a
manufacturer of highly sophisticated laser aiming
and illumination devices, night vision devices, laser
range finding systems, computerized fire control
systems, thermal imaging systems, and sensor fusion
systems. Insight’s products were, and are still are,
used by the United States military, Federal law
enforcement agencies, and allied nations. In addition,
Insight Technology Inc. developed and maintained a
line of tactical illuminators (laser aiming devices)
restricted for use only by the military and Law
Enforcement agencies, as well as products for sale to
the general public.

App.97a
11. Federal law restricted to law enforcement
agencies or the military the sale and ownership of
fully automatic machineguns manufactured after 1986.
No individual law enforcement officer could purchase
a post-1986 fully automatic machinegun. Possession
of post-1986 fully automatic machineguns by a law
enforcement officer could only be authorized by the
officer’s law enforcement agency and only for the law
enforcement duties of that officer.
OBJECT OF THE CONSPIRACY
12. Between on or about November 2008, and
continuing through on or about January of 2010. in
the Northern District of Indiana and elsewhere:
VAHAN KELERCHIAN
defendant herein, together with Joseph Kumstar,
and Ronald Slusser, did knowingly combine, conspire,
confederate, and agree with each other, and with
others known and unknown to the grand jury, to
commit an offense against the United. States, that is,
to knowingly make false statements and representations with respect to information under Chapter 44,
of Title 18 of the United States Code, required to be
kept in the records of individuals licensed under
Chapter 44, relating to the acquisition of firearms, in
violation of Title 18 United States Code, Section
924(a)(1)(A).
HOW THE CONSPIRACY OPERATED
13. It was part of the conspiracy that JOSEPH
R. KUMSTAR, and RONALD D. SLUSSER used their
position as sworn law enforcement officers, and
VAHAN KELERCHIAN used his position as a Class 3

App.98a
firearms dealer to acquire approximately 71 (SeventyOne) fully automatic H&K machineguns in the name
of the Lake County Sheriff’s Department knowing
that the Lake County Sheriff’s Department was not
the true owner of these machineguns.
14. It was further part of the conspiracy that
when acquiring these machineguns, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR. and RONALD D.
SLUSSER knew these H&K machineguns were manufactured after 1986, and therefore could only be
acquired by law enforcement agencies and not individual law enforcement officers.
15. It was further part of the conspiracy that
when acquiring the H&K machineguns, VAHAN
KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD
D. SLUSSER caused false entries listing the Lake
County Sheriff’s Department as the owner of these
machineguns, to be made by individuals and companies
required to keep such records under Chapter 44, of
Title 18 of the United States Code.
16. It was further part of the conspiracy that
when acquiring these machineguns, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER, used Lake County Sheriff’s Department
letterhead to create letters which falsely represented
that the H&K machineguns were being purchased by
and were going to be used by, the Lake County
Sheriff’s Department in carrying out its law enforcement responsibilities.
17. It was further part of the conspiracy that
when acquiring these machineguns, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER used the Lake County Sheriff’s Depart-

App.99a
ment letterhead to create documents which falsely
represented the H&K machineguns were to be used
by the Lake County Sheriff’s Department.
18. It was further part of the conspiracy that
when acquiring these machineguns, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER created false and fictitious Lake County
Sheriff’s Department purchase orders to convince the
suppliers of the H&K machineguns that the Lake
County Sheriff’s Department was the true purchaser
of the H&K machineguns even though the defendants themselves provided the funds for the purchase
of these H&K machineguns.
19. It was further part of the conspiracy that
VAHAN KELERCHIAN, JOSEPH R. KUMSTAR,
and RONALD D. SLUSSER acquired these H&K
machineguns for a cost of between approximately
$1200 and $1600 each.
20. It was further part of the conspiracy that
when acquiring these machineguns, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER had all of the H&K machineguns shipped
to the Lake County Sheriff’s Department.
21. It was further part of the conspiracy that
after acquiring these machineguns, all of the H&K
machineguns were removed from the Lake County
Sheriff’s Department to the personal residence of
RONALD D. SLUSSER.
22. It was further part of the conspiracy that
after the H&K machineguns were at the personal
residence of RONALD D. SLUSSER, he would remove
the upper receivers (the barrel) and any other additional parts that could be removed from the lower

App.100a
receiver (the firing mechanism of the H&K
machinegun).
23. It was further part of the conspiracy that
after removing the upper receivers and any other
additional parts that could be removed from the
lower receiver, VAHAN KELERCHIAN, JOSEPH R.
KUMSTAR, and RONALD D. SLUSSER would sell
on the internet to any willing purchaser, all of these
upper receivers and additional parts. The sale of
these upper receivers and parts would range from
approximately $2,500 to $3800 each.
24. It was further part of the conspiracy that
after removing the upper receivers, RONALD D.
SLUSSER would return some of the upper receivers
to VAHAN KELERCHIAN.
25. At no time did VAHAN KELERCHIAN,
JOSEPH R. KUMSTAR. and RONALD D. SLUSSER
have proper authority from the Lake County Sheriff’s
Department to engage in any of the above mentioned
purchases or sales of the H&K machineguns or their
parts.
26. At no time were any of the H&K machineguns obtained by VAHAN KELERCHIAN, JOSEPH
R. KUMSTAR, and RONALD D. SLUSSER listed in
the property inventory of the Lake County Sheriff’s
Department.
27. In furtherance of the conspiracy and to effect
its objects:
VAHAN KELERCHIAN,
Defendant herein, together with JOSEPH R.
KUMSTAR, and RONALD D. SLUSSER, and others

App.101a
known and unknown to the grand jury performed the
following:
OVERT ACTS

First Machinegun Purchase
a.

On or about December 22, 2008, JOSEPH
R. KUMSTAR issued a “Letter of Intent” on
Lake County Sheriff’s Department letterhead
to H&K for (50) additional H&K model 416
fully automatic machineguns. This letter of
intent stated these machineguns were for
the “exclusive law enforcement use of the
Lake County Sheriff’s Department” and
that the “point of contact for all inquiries in
this matter will be Warrant Officer Ron
Slusser. The letter then listed RONALD D.
SLUSSER’S home phone number. This letter
was signed “Joseph Kumstar, Chief of Police.”

b.

VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D. SLUSSER used
their personal funds to obtain these machineguns and did not have proper authorization
of the Lake County Sheriff’s Department to
purchase these machineguns. These (50)
machineguns were purchased for approximately $1650 each.

c.

For this purchase, VAHAN KELERCHIAN
provided payment to a third party gun dealer
in the amount of approximately $83,026.

d.

Shortly after obtaining these (50) H&K
fully automatic machineguns, RONALD D.
SLUSSER did cut up and remove the upper
receiver barrels from these (50) H&K fully

App.102a
automatic machineguns. Some of these upper
barrels were sold on the internet to any
willing buyer with VAHAN KELERCHIAN,
JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER retaining the proceeds from this
sale. Some of the upper barrels were returned
to KELERCHIAN
e.

In or about May of 2011, during the execution
of an organized crime search warrant by
Montreal, Canada, gun and gang law enforcement officials, recovered four upper barrels
from this (50) H&K fully automatic machinegun purchase by VAHAN KELERCHIAN,
JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER. The serial numbers on these
upper receivers (barrels) listed the Lake
County Sheriff’s Department as the registered owner.

Second Machinegun Purchase
f.

In or about February of 2009. JOSEPH R.
KUMSTAR issued another “Letter of Intent”
on Lake County Sheriff’s Department letterhead to H&K for (9) H&K model MP5KN
fully automatic machineguns. This letter of
intent stated these machineguns were for
the exclusive use of the Lake County Police
Department.

g.

In or about February of 2009, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR and
RONALD D. SLUSSER did cause a false
and fictitious Lake County Sheriff’s Department purchase order to be mailed or faxed,
which represented the Lake County Sheriff’s

App.103a
Department to be the purchaser of these
machineguns even though it was not the
true purchaser as required by law.
h.

For this purchase, VAHAN KELERCHIAN
provided payment to H&K, the gun manufacturer/distributer in the amount of approximately $11,664.

i.

Shortly after obtaining these (9) H&K fully
automatic machineguns, RONALD D. SLUSSER did cut up and remove the upper
receiver barrels from these fully automatic
machineguns. These upper barrels were
sold to Person A in Utah, Person A paid
Slusser $18,900 for these H&K parts. Slusser then paid $9450 to Kumstar and $9450
to Kelerchian. These payments to Kelerchian and Kumstar were paid because KELERCHIAN and Kumstar had fronted money for
this purchase.

Third Machinegun Purchase
j.

In or about October 2009, JOSEPH R. KUMSTAR issued another “Letter of Intent” on
Lake County Sheriff’s Department letterhead
for (12) H&K model 53A3 fully automatic
sub-machineguns. This letter of intent stated
these sub-machineguns would be the property of the Lake County Sheriff’s Department and would not be resold or transferred,
and would be used to carry out the official
duties of the Lake County Sheriff’s Department.

k.

In or about October of 2009, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR and

App.104a
RONALD D. SLUSSER did cause another
false and fictitious Lake County Sheriff’s
Department purchase order to be mailed or
faxed, which represented the Lake County
Sheriff’s Department to be the purchaser of
these sub-machineguns even though it was
not the true purchaser as required by law.
l.

Shortly after obtaining these (12) H&K fully
automatic sub-machineguns, RONALD D.
SLUSSER did cut up and remove the upper
receiver barrels from these fully automatic
machineguns. These upper barrels were
sold to Person A in Utah. Person A paid
Slusser $31,200 for these H&K parts. Slusser
then paid Kelerchian $28,200. This payment
to KELERCHIAN was made because Kelerchian had fronted the money for this
purchase.

m. For this purchase, VAHAN KELERCHIAN
provided payment to the H&K, the gun
manufacturer/distributer, in the amount of
approximately $16,800.
n.

At no time did VAHAN KELERCHIAN,
JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER have the proper permission of
the Lake County Sheriff’s Department to
engage in any of the above three purchases
or subsequent sales of these H&K submachineguns.

28. In the purchasing each of these (71) machineguns and sub-machineguns, VAHAN KELERCHIAN,
JOSEPH R. KUMSTAR, and RONALD D. SLUSSER
knowingly caused false entries to be made in the

App.105a
books and records of the companies supplying these
firearms, in that these records reflected the Lake
County Sheriff’s Department as the registered owner
of these (71) firearms when in fact, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER knew that to be false.
All in violation of Title 18, United States Code 371 and
924(a)(1)(A).
THE GRAND JURY FURTHER CHARGES:
COUNT 2
(Conspiring to Defraud the
Food and Drug Administration)
1. The Grand Jury realleges and reincorporates
by reference paragraphs 1-11, of Count 1 as though
fully set forth herein;
OBJECT OF THE CONSPIRACY
2. Between on or about December 2008, and
continuing through on or about September 2010, in
the Northern District of Indiana and elsewhere:
VAHAN KELERCHIAN,
defendants herein, did knowingly combine, conspire,
confederate, and agree with JOSEPH KUMSTAR,
RONALD D. SLUSSER, and with others known and
unknown to the grand jury, to defraud the Food and
Drug Administration (FDA), an agency of the United
States, by interfering with and obstructing the lawful
government functions of the FDA to:

App.106a
a. Limit the sale of various restricted laser aiming
sight devices to the military and law enforcement
agencies only;
b. Correctly identify first line purchasers of
various laser aiming sight devices which were restricted
to military or law enforcement agency purchasers
only.
All in violation of Title 18 United States Code, Section
371.
HOW THE CONSPIRACY OPERATED
3. It was part of the conspiracy that JOSEPH R.
KUMSTAR, and RONALD D. SLUSSER used their
position as sworn law enforcement officers, along
with VAHAN KELERCHIAN, to acquire approximately 74 (Seventy-Four) restricted laser aiming sight
devices by fraudulently using the name of the Lake
County Sheriff’s Department and The Lowell, Indiana,
Police Department, knowing that the Lake County
Sheriff’s Department and the Lowell Police Department were not the true owners of these restricted
laser aiming devices.
4. It was further part of the conspiracy that
when acquiring these restricted laser aiming sights,
VAHAN KELERCHIAN, JOSEPH R. KUMSTAR,
and RONALD D. SLUSSER knew they could only be
acquired by law enforcement agencies and not individual law enforcement officers.
5. It was further part of the conspiracy that when
acquiring these (74) restricted laser aiming sight
devices, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D. SLUSSER caused false information to be recorded in the books and records of the

App.107a
Insight Technology, Inc., regarding who was the true
first purchaser of these laser aiming sight devices.
Furthermore, by causing false information to be
recorded in the books records of the Insight Technology,
Inc., VAHAN KELERCHIAN, JOSEPH R. KUMSTAR,
and RONALD D. SLUSSER interfered with and
obstructed the lawful government functions of the
FDA to (a) limit the sale of various restricted laser
aiming sight devices to only the military and law
enforcement agencies and (b) correctly identify first
line purchasers of these (74) various laser aiming
sight devices, the sale of which was restricted to
military or law enforcement agency purchases only.
6. It was further part of the conspiracy that
when acquiring these restricted laser sights VAHAN
KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD
D. SLUSSER caused to be submitted to Insight
Technology, Inc., a false and fictitious Lake County
Sheriff’s Department purchase order for the purpose
of inducing Insight Technology, Inc., to believe that
these restricted laser sights were being purchased by
the Lake County Sheriff’s Department, when in fact
the defendants were acquiring these restricted laser
sights with their own personal funds and for their
personal use and resale.
7. It was further part of the conspiracy that
when acquiring these restricted laser sights VAHAN
KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD
D. SLUSSER caused to be submitted to Insight
Technology, Inc., a false and fictitious Lowell Police
Department documents for the purpose of inducing
Insight Technology, Inc., to believe that these restricted
laser sights were being purchased by the Lowell Police
Department, when in fact the defendants were acquir-

App.108a
ing these restricted laser sights with their own personal
funds and for their personal use and resale.
8. It was further part of the conspiracy that
when acquiring these restricted laser sights VAHAN
KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD
D. SLUSSER would submit to Insight Technology,
Inc., a “IR, Product Disclosure Agreement” signed by
JOSEPH R. KUMSTAR which falsely represented
that the restricted laser sights being purchased would
“not be sold or transferred to individual law enforcement or civilian personnel.’“
9. It was further part of the conspiracy that when
acquiring these restricted laser sights VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D.
SLUSSER would submit to Insight Technology, Inc.,
a “IR Product Disclosure Agreement” which purported to be signed by the proper authorities at the
Lowell Police Department but in fact, falsely represented that the restricted laser sights being purchased
would “not be sold or transferred to individual law
enforcement or civilian personnel.”
10. It was further part of the conspiracy that
when acquiring these restricted laser sights VAHAN
KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD
D. SLUSSER caused false and fictitious Lake County
Sheriff’s Department purchase orders to be created
which falsely represented that the restricted laser
sights were being purchased by the Lake County
Sheriff’s Department.
11. It was further part of the conspiracy that
when acquiring these restricted laser sights VAHAN
KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD
D. SLUSSER would cause these restricted laser

App.109a
sights to be delivered to the Lake County Sheriff’s
Department or the Lowell Police Department rather
than to their personal residences.
12. It was further part of the conspiracy that
after acquiring these restricted laser sights, all of
them were removed from the Lake County Sheriff s
Department and the Lowell Police Department to the
personal residence of either KUMSTAR or SLUSSER.
13. It was further part of the conspiracy that
after these restricted laser sights were at the either
KUMSTAR or SLUSSER’s residence, RONALD D.
SLUSSER would sell some these restricted laser
sights on the internet to any willing purchaser. The
sale of these restricted laser sights ranged from
approximately $2,800 to $3000 each. Some of the
restricted lasers aiming sights were retained by each
of the defendants.
14. At no time did VAHAN KELERCHIAN,
JOSEPH R. KUMSTAR, and RONALD D. SLUSSER
have proper authority from the Lake County Sheriff’s
Department or the Lowell Police Department to
engage in any of the above mentioned purchases or
sales of the restricted laser sights.
15, At no time were any of the restricted laser
sights obtained by VAHAN KELERCHIAN, JOSEPH
R. KUMSTAR, and RONALD D. SLUSSER listed in
the property inventory of the Lake County Sheriff’s
Department or the Lowell Police Department.
16. In furtherance of the conspiracy and to effect
its objects:

App.110a
VAHAN KELERCHIAN,
Defendant herein, JOSEPH R. KUMSTAR, and
RONALD D. SLUSSER, and other conspirators, known
and unknown to the grand jury performed the following:
OVERT ACTS

First Laser Sight Purchase
a.

In or about December 6, 2008, VAHAN
KELERCHIAN, JOSEPH R. KUMSTAR,
and RONALD D. SLUSSER ordered from
Insight Technology Inc., approximately 25
various restricted laser sights having a
value of approximately $27,000,

b.

On or about December 6, 2008, JOSEPH R.
KUMSTAR, submitted to Insight Technology,
Inc., a “IR Product Disclosure Agreement”
signed by JOSEPH R. KUMSTAR which
represented that the restricted laser sights
being purchased would not be sold or
transferred to individual law enforcement
or civilian personnel.”

c.

In or about December of 2008, JOSEPH R.
KUMSTAR signed a false and fictitious
Lake County Sheriff’s Department purchase
order inducing Insight Technology, Inc., to
believe that the Lake County Sheriff’s Department was the true purchaser of these
restricted laser sights even though the
defendants themselves provided the funds
for the purchase of these restricted laser
sights.

App.111a
d.

In or about January of 2009, Insight Technology, Inc. shipped these restricted laser
sights to the Lake County Sheriff’s Department.

e.

For this purchase, VAHAN KELERCHIAN
provided payment to Insight Technologies
Inc., in excess of $17,000.

f.

After obtaining these restricted laser sights,
RONALD D. SLUSSER sent back to VAHAN
KELERCHIAN approximately 12 of these
restricted laser sights,

g.

After obtaining these restricted laser sights.
VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and RONALD D. SLUSSER sold via
the internet some these restricted laser
sights to any and all willing purchasers,
including Keith Mitts.

h.

On or about August 21, 2009, the Department
of Defense Criminal Investigative Service
(DCIS) engaged in a successful undercover
purchase of a restricted laser sight being
offered for sale on E-Bay by a Keith Mitts.
DCIS undercover agents paid $4,200 for a
restricted laser aiming sight which was
traced back to the December 6, 2008, laser
sight order from Insight Technology, Inc.,
which was sent to the Lake County Sheriff’s
Department. Subsequent to this undercover
purchase, two additional restricted laser
sights of the same model and type that were
part of the December 6, 2008, laser sight
order from Insight Technology, Inc., which
was sent to the Lake County Sheriff’s Depart-

App.112a
ment, were recovered from Mitt’s Mississippi
residence during Mitt’s shooting and standoff
with local police officers.

Second Laser Sight Purchase
i.

In or about December 2009, the defendants
ordered from Insight Technology Inc., approximately 12 restricted laser sights having a
value of approximately $15,000.

j.

On or about December 2009, RONALD R.
SLUSSER submitted to Insight Technology
Inc., an “IR Product Disclosure Agreement”
which represented that the restricted laser
sights being purchased would “not be sold or
transferred to individual law enforcement
or civilian personnel.”

k.

In or about January of 2010, Insight
Technology, Inc. shipped these restricted
laser sights and RONALD D. SLUSSER
obtained these restricted laser sights.

l.

For this purchase, VAHAN KELERCHIAN
provided several payments to Insight
Technologies Inc., totaling more than $15,000.

m. After obtaining these restricted laser sights,
RONALD D. SLUSSER sold via the internet
these restricted laser sights to any willing
purchaser.

Third Laser Sight Purchase
n.

In or about February 2010, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR, and
RONALD D. SLUSSER ordered from Insight
Technology Inc., approximately 22 various

App.113a
restricted laser sights having value of approximately $30,000.
o.

On or about February 23, 2010, JOSEPH R.
KUMSTAR submitted to Insight Technology
Inc., an “IR Product Disclosure Agreement”
signed by JOSEPH R. KUMSTAR which
represented that the restricted laser sights
being purchased would not be sold or
transferred to individual law enforcement
or civilian personnel.”

p.

In or about February 2010, VAHAN KELERCHIAN, JOSEPH R. KUMSTAR and
RONALD SLUSSER created a false and fictitious Lake County Sheriff’s Department
purchase order inducing Insight Technology,
Inc., to believe that the Lake County Sheriff’s
Department was the true purchaser of these
restricted laser sights even though the
defendants themselves provided the funds
for the purchase of these the restricted laser
sights.

q.

In or about March 2010, Insight Technology,
Inc. shipped these restricted laser sights to
the Lake County Sheriff’s Department,

r.

For this purchase, VAHAN KELERCHIAN
provided several payments to Insight
Technologies Inc., totaling more than $25,000.

s.

After obtaining these restricted laser sights,
RONALD D. SLUSSER sold via the internet
some of these restricted laser sights to any
willing purchaser.

App.114a
t.

Approximately 20 of these restricted laser
sights were returned to VAHAN KELERCHIAN by RONALD D. SLUSSER.

Fourth Laser Sight Purchase
u.

In or about July 2010, RONALD D. SLUSSER ordered from insight Technology, Inc.,
approximately 15 restricted laser sights
from Insight Technology Inc., having a
value of approximately $18,000.

v.

On or about July 6, 2010, RONALD R.
SLUSSER submitted to Insight Technology,
Inc., an “IR Product Disclosure Agreement”
which represented that the restricted laser
sights being purchased would “not be sold or
transferred to individual law enforcement
or civilian personnel.”

w.

In or about August 2010, Insight Technology,
Inc. shipped these restricted laser sights
and RONALD D. SLUSSER subsequently
retrieved them.

x.

For this purchase, VAHAN KELERCHIAN
provided payment to Insight Technologies
Inc., in excess of $16,000.

y.

After obtaining these restricted laser sights,
RONALD D. SLUSSER sold via the internet
these restricted laser sights to any willing
purchaser and sent two of the sights back to
VAHAN KELERCHIAN.

z.

On August of 2010, a Special Agent of the
FDA engaged in an undercover purchase of
a restricted laser sight from RONALD D.
SLUSSER. This restricted laser sight was

App.115a
purchased by RONALD D. SLUSSER from
Insight Technology, Inc., for approximately
$1250.00 and sold to the FDA undercover
agent for approximately $2900.00. An examination of the serial number for this sight
revealed that it was part of the July 2010
order of 15 restricted laser sights that had
been ordered by RONALD D. SLUSSER
and paid for by VAHAN KELERCHIAN.
All in violation of Title 18 United States Code, Section
371.
THE GRAND JURY FURTHER CHARGES:
COUNT 3
(Conspiracy to Make False StatementsDemonstration Letters)
From on or about October 2007, and continuing
to in or about March 28, 2010, both dates being
approximate and inclusive, in the Northern District
of Indiana and elsewhere,
VAHAN KELERCHIAN
defendant herein, and Joseph Kumstar, knowingly
combined, conspired, confederated and agreed together
and with each other, and with other persons known
and unknown to the Grand Jury, to commit the
following offenses against the United States: to willfully
and knowingly make and cause to be made, and use
and cause to be used, in a matter within the jurisdiction of a department or agency of the United States,
to wit: the Bureau of Alcohol, Tobacco, Firearms, and
Explosives, false writings and documents to wit:
approximately (7) letters on Lake County Sheriff’s

App.116a
Department
letterhead
requesting
firearm
demonstrations of machine guns (demonstration letters)
from VAHAN KELERCHIAN, knowing the same to
contain a materially false, fictitious, and fraudulent
statement because VAHAN KELERCHIAN very well
knew that in fact no demonstration was going to
occur.
In furtherance of this scheme, false demonstration
letters were sent from Lake County Indiana, VAHAN
KELERCHIAN and to the National Firearms Branch
of the Bureau of Alcohol, Tobacco, and Firearms
located in Martinsburg, WV, on the following approximate days: October 4, 2007, February 13, 2009, February 16, 2009, June 29, 2009, March 28, 2010.
All in violation of Title 18, United States Code Section
1001, and 371.
THE GRAND JURY FURTHER CHARGES:
COUNTS 4-7
(False Statements-Demonstration Letters)
On or about the following dates in the Northern
District of Indiana and elsewhere,
VAHAN KELERCHIAN
defendant herein, and Joseph Kumstar did willfully
and knowingly make and cause to be made, and use
and cause to be used, in a matter within the jurisdiction of a department or agency of the United States,
to wit: the Bureau of Alcohol, Tobacco, Firearms, and
Explosives, false writings and documents to wit:
approximately (4) letters on Lake County Sheriff’s
Department letterhead requesting firearm demonstrations of various machine guns (demonstration

App.117a
letters) from VAHAN KELERCHIAN, knowing the
same to contain a materially false, fictitious, and
fraudulent statement because VAHAN KELERCHIAN very well knew that in fact no demonstration was
going to occur, said letters being mailed from Lake
County Indiana, to VAHAN KELERCHIAN in Pennsylvania and the National Firearms Branch of the
Bureau of Alcohol, Tobacco, and Firearms located in
Martinsburg, WV., on the following approximate days:
COUNT

DATE

4

February 13, 2009

5

February 16, 2009

6

June 29, 2009

7

March 28, 2010

All in violation of Title 18, United States Code, Section
1001 and 2.
THE GRAND JURY FURTHER CHARGES:
COUNT 8
(Bribery)
1. At all times material to this indictment, the
Lake County Sheriff’s Department was an agency of
a local government entity to wit: Lake County, Indiana,
that received federal assistance in excess of $10,000
during the one-year period beginning January 2,
2008 and ending December 31, 2008.
2. Joseph Kumstar was an agent of Lake County
Sheriff’s Department acting as its Deputy Chief, in
charge of operations, whose duties included overseeing

App.118a
and managing the Lake County Sheriff’s Department.
3. On or about July 31, 2008, in the District of
Indiana, and elsewhere,
VAHAN KELERCHIAN
defendant herein, did corruptly give, offer, and agree
to give a thing of value to wit: a Remington .12 Gauge
short-barrel shotgun, to Joseph Kumstar, intending to
influence and reward Joseph Kumstar in connection
with a transaction and series of transactions of the
Lake County Sheriff’s Department involving $5,000
or more.
All in violation of Title 18, United States Code, Section
666(a)(2) and 2.
THE GRAND JURY FURTHER CHARGES:
COUNT 9
(Conspiracy to Launder Monetary
Instruments: 1956 AND 1957)
Beginning in or about February 2009 and
continuing through in or about January 2010, both
dates being approximate and inclusive, in the District of Indiana and elsewhere,
VAHAN KELERCHIAN
Defendant herein, Joseph Kumstar, and Ronald
Slusser, willfully and knowingly conspired and agreed
together and with each other, and with others known
and unknown to the Grand Jury, to commit certain
offenses:

App.119a
1) Under Title 18, United States Code § 1956, to
conduct and attempt to conduct financial transactions affecting interstate commerce, which transactions involved proceeds of specified unlawful activity,
that is mail and wire fraud, in violation of title 18
United States Code § 1341 and 1343: (1) with the intent
to promote the carrying on of such specified unlawful
activity and (2) knowing that the transaction was
designed in whole or in part to conceal and disguise
the nature, location, source, ownership, and control
of the proceeds of said specified unlawful activity,
and while conducting or attempting to conduct such
financial transactions knew that the property involved
in the financial transaction represented the proceeds
of some form of unlawful activity, and
2). Under Title 18, United States Code § 1957, to
conduct and attempt to conduct monetary transactions affecting interstate commerce, in criminally
derived property of a value greater than $10,000,
such property having been derived from a specified
unlawful activity, that is, mail and wire fraud, in
violation of Title 18 United States Code § 1341 and
1343.
All in violation of Title 18 United States Code 1956(h),
1956(a)(1)(B)(i), 1957, and 2.
FIRST FORFEITURE ALLEGATION
1. The allegations of Count One of the Indictment are re-alleged and by this reference fully incorporated herein for the purpose of alleging forfeitures
to the United States of America pursuant to the
provisions of Title 18 United States Code, Section
924(d), and Title 28 United States Code, Section
2461(c).

App.120a
2. Upon conviction of Count One of the Indictment, Vahan Kelerchian, defendant herein, shall
forfeit to the United States of America pursuant to
Title 18, United States Code, Section 924(d), and
Title 28, United States Code, Section 2461(c), any and
all firearms involved in the commission of such
offenses:
SECOND FORFEITURE ALLEGATION
1. The allegations contained in Count 9 of this
Indictment are hereby re-alleged and incorporated by
reference for the purpose of alleging forfeiture pursuant to Title 18, United States Code, Sections 982(a)(1).
2. Pursuant to Title 18, United States Code, Section
982(a)(1), upon conviction of an offense in violation of
Title 18, United States Code, Sections 1956 and
1957, the defendant, VAHAN KELERCHIAN, shall
forfeit to the United States of America any property,
real or personal, involved in such offense, and any
property traceable to such property.
3. If any of the property described above, as a
result of any act or omission of the defendant:
a.

cannot be located upon the exercise of due
diligence;

b.

has been transferred or sold to, or deposited
with, a third party;

c.

has been placed beyond the jurisdiction of
the court;

d.

has been substantially diminished in value;
or

e.

has been commingled with other property
which cannot be divided without difficulty,

App.121a
the United States of America shall be entitled to forfeiture of substitute property pursuant to Title 21,
United States Code, Section 853(p), as incorporated
by Title 18, United States Code, Section 982(b)(1)
and Title 28, United States Code, Section 2461(c).
A TRUE BILL:
S/Foreperson
FOREPERSON
DAVID CAPP
UNITED STATES ATTORNEY
By: S/Philip C. Benson
Philip C. Benson
Assistant United States Attorney

App.122a
TRIAL TRANSCRIPT–RELEVANT EXCERPTS
(OCTOBER 15, 2015)
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA,
v.
VAHAN KELERCHIAN,

Defendant.

________________________
No. 2:13-CR-66
Volume 10 of 10
Transcript of Trial

Before: The Honorable Joseph VAN BOKKELEN,
United States District Judge.
Hammond, Indiana
October 15, 2015

[Transcript p. 2328-2331]
[...]
. . . this happens. And you had Mr. Kelerchian on
the stand, I submit to you, lying about it. “Oh,
that was for Lake County.” There’s certainly no
paperwork to document that. There’s none, and
there’s no reason why there shouldn’t have been.

App.123a
We’ve gone through this already. There’s never a
transfer to Lake County, and there’s no money
paid. None whatsoever. Lastly, the conspiracy to
commit money laundering. Let’s talk about this.
There’s two ways the Government alleges that the
defendant laundered money. One was to conceal
the source of some illegal proceeds. That’s the
1956 conspiracy. Money laundering appears that
you engage in a financial transaction knowing
that the money you got was illegally obtained,
and you try and hide the source, the nature, or
the location of those funds. That’s really all it is
for all the Court read you. In this case, we’re
alleging that the sale of the parts to Adam Webber
—okay—that those machine guns were fraudulently acquired; that they lied to H & K to get
that property of H & K, those machine guns.
They had to lie, otherwise, H & K never would’ve
given them up. If Mr. Kelerchian or Mr. Slusser
or Mr. Kumstar would’ve called H & K and said,
“Hey, we want to buy some guns and strip them,”
H & K wasn’t going to sell them. They couldn’t
have. So they lied to H & K saying they were for
the department; so they got that property of H &
K. And once they got the property, they stripped
it off and sold the parts to Adam Webber. The
$18,900, that is the profit that Adam Webber
paid them for the guns. Actually, it’s what he
paid for the parts for the guns. Well, what
happens? That money goes to Mr. Slusser, and
he splits it up into two checks—one to Mr.
Kelerchian, one to Mr. Kumstar. And the records
show clearly that Mr. Kelerchian cashed this check
from Ronald Slusser. Well, you may say, “Why is
that money laundering?” Well, if the elements

App.124a
here said that Mr. Kelerchian engaged in the
financial transaction with the proceeds of wire
fraud, the acquisition of these false machine
guns and the sale of them, what were the proceeds of that machine gun transaction? It was
the 18,9 from Webber. The $18,900.
“This transaction designed in whole or part to
conceal and disguise the nature and location or
source or ownership or control of the wire fraud
proceeds.” Well, when Mr. Slusser writes this
check for $9,450 to Mr. Kelerchian, and he deposits
it, that hides the source of the proceeds. What
was the original source of the proceeds from the
wire fraud? It was Webber’s check. They funneled
the money through Mr. Slusser. Why didn’t
Webber write a check directly to Mr. Kelerchian?
Mr. Slusser was used to conceal the source of the
proceeds. This way, when the check that Mr.
Kelerchian cashed from Mr. Slusser had no mention, no reference, no idea that that money came
from Adam Webber, the person who bought the
parts from the fraudulently acquired machine
guns. That’s a money laundering allegation, and
that’s the elements, and that’s the proof that we
submitted on that.
Now, the other way you can launder money is
simply to get money from an illegal transaction,
some illegal activity and if you engage in a financial
transaction in excess of $10,000. In this case,
there’s the elements that the Court told you. And
what happened here? Well, what you have here is
the same thing. You got these machine guns being
fraudulently acquired. They’re torn up. They’re
sent to Adam Webber. What does Adam Webber

App.125a
do? He writes a check for $31,200. Mr. Slusser
forwards that on, actually recuts the check for
$28,200 and gives it to Mr. Kelerchian. Well,
obviously $28,200 is more than $10,000, and the
cashing of the check is a financial transaction.
The Government’s position is that in this check
here are the proceeds of the wire fraud, the sale
of the parts to Adam Webber, and then the
transaction occurred in the United States. It’s a
little bit different from the first money laundering
allegation because you have to prove they concealed
the money.
I submit to you, this could’ve been charged as a
concealment, too, because they ran it through
Slusser, but you have an amount here in excess
of $10,000, and that’s all you need for an 18
U.S.C. § 1957 money laundering charge.
Ladies and gentlemen, my time is limited. I ask
you to consider the evidence carefully, to be
smart in your deliberations as the defendant was
when he was committing this crime.
Thank you.
THE COURT: Thank you, Mr. Benson.
We will take about a 15-minute break, and then
Ms. Connor will give her closing arguments to be
followed by rebuttal closing by the Government.
Remember the admonitions I’ve given you all
along. They’re important all the time, probably
more important now. Don’t talk about this case
yet among yourselves until I instruct you can
talk to each other about the case when it’s submitted to you for your deliberations.

App.126a
About a 15-minute break. If you need more time,
just let Clarence know, and we’ll give you that.
(Jury not present.)
THE COURT: Court will be in recess about 15 minutes.
(Break.)
(Jury not present.)
THE COURT: You ready?
MS. CONNOR: I’m ready.
THE COURT: Okay. Bring the jury in.
(Jury present.)
THE COURT: You can be seated.
Ms. Connor, you can proceed.
MS. CONNOR: Thank you, Your Honor.
Good morning, ladies and gentlemen of the jury.
First, I . . . .
[...]

App.127a
TRIAL TRANSCRIPT–RELEVANT EXCERPTS
(OCTOBER 9, 2015)
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA,
v.
VAHAN KELERCHIAN,

Defendant.

________________________
No. 2:13-CR-66
Volume 7 of 10

Before: The Hon. Joseph VAN BOKKELEN,
United States District Judge.

[Transcript p. 1613]
. . . now were admitted only conditionally under
Santiago.
As to the motions, with regards—at this point,
under Federal Rule of Criminal Procedure 29A, as
Mr. Benson correctly points out, the Government
is entitled to certain inferences at this point, and
the Court, in taking those inferences at this point,
the Court denies the motion as to Counts 1, 2, 3,
4, 5, 6, and 7.

App.128a
As to Counts 8 and 9, the Court, pursuant to Rule
29B, takes those counts under advisement at
this point.
Do you have your witnesses ready to go?
MS. CONNOR: We do, Your Honor.
THE COURT: We’ll start, at the earliest, 11:30, and
we’ll break sometime probably between 12:30 and
12:45 for lunch.
MR. BENSON: I would ask a list of the witnesses
from counsel as well as the list of the exhibits
she intends to use today, if I can have copies,
please.
THE COURT: Okay. And I’ll explain to the jury when
they come in the matters we took up, which is not
unusual, they take an amount of time.
MS. CONNOR: If the Government wants to know, I’m
going to call Mr. Kelerchian. At this stage, I don’t
intend to do anything more than what we have
in terms of exhibits.
THE COURT: Okay. Let’s start gathering up around
and get back in here—look at 11:30 as sort of a
target. If . . . .
[...]

[Transcript p. 2248]
. . . evidence that we’ve put in.
But I do agree that this one instruction should
be changed to reflect only as money or property
described in Count 1, because counsel is correct,
the defrauding the FDA would be defrauding sort

App.129a
of an intangible right. That is an appropriate
subject for money laundering.
Thank you, Judge.
THE COURT: The Court is going to stand by its previous rulings, including taking the two counts
under advisement for the simple reason is I want
to get ahold of that transcript and look because
my recollection of the evidence is not necessarily
the same as your recollection of the evidence,
and I want to see the transcript.
I mean, it’s just the way it’s going to be. I’m going
to take it under advisement. We’ll see what the
jury does. If they think the case is as bad as you
think it is, you’ll get acquittals on those two
counts; if not, then I get another look at it.
Anyway.
MS. CONNOR: So the Court is removing Count 2,
though, from the money laundering discussion?
That’s what the Government is asking.
THE COURT: The one thing the Government asks,
we’re doing that.
MR. BENSON: Yes. I believe that would be . . . .
[...]

